SEMIANNUAL REPORT TO THE


CONGRESS                                October 1, 2004 – March 31, 2005




OFFICE OF INSPECTOR GENERAL
FEDERAL DEPOSIT INSURANCE CORPORATION
SEMIANNUAL REPORT TO THE


CONGRESS                       October 1, 2004–March 31, 2005




        OFFICE OF INSPECTOR GENERAL
        FEDERAL DEPOSIT INSURANCE CORPORATION
                                                                                       Contents

Inspector General’s Statement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Highlights. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Management and Performance Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Investigations: Making an Impact. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
OIG Organization: Pursuing OIG Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
Reporting Terms and Requirements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48
Reader’s Guide to Inspector General Act Reporting Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
Statistical Information Required by the Inspector General Act of 1978, as amended . . . . . . . . . . . . . . . 51
Farewell to OIG Retirees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58

Tables
Table 1: Significant OIG Achievements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
Table 2: Nonmonetary Recommendations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

Figures
Figure 1: Office of Investigations Case Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Figure 2: Products Issued and Investigations Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
Figure 3: Questioned Costs/Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
Figure 4: Fines, Restitution, and Monetary Recoveries Resulting from
          OIG Investigations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

                                                                                                                                                                            iii
                                                       Inspector General’s
                                                       Statement

After a long and distinguished career of federal       in the information security area have achieved
service, former Inspector General Gaston L.            this result.
Gianni, Jr., retired in late December. Since
becoming the FDIC’s Acting Inspector General           I am also proud of the Office of Inspector Gen-
(IG) I have been committed to continuing the           eral’s (OIG) collective body of work to highlight
excellent working relationships that Mr. Gianni        information technology security issues warrant-
established with the Corporation during his            ing attention, especially as articulated in our
81/2 year tenure. Simply put, communication,           Federal Information Security Management Act
mutual respect, and fairness are hallmarks of          (FISMA) and its predecessor reports over the past
successful relations. I will continue to operate in    4 years. Our involvement with the Corporation
the spirit of those principles as I serve in an act-   on a “Getting to Green” initiative with respect to
ing capacity until a new IG is nominated by the        information security is a prime example of effec-
President and confirmed by the Senate. I also          tive working relations. We recently undertook our
value Mr. Gianni’s legacy of strong support for        2005 FISMA evaluation and will report the results
the IG community and respect for the oversight         in our upcoming semiannual report.
role of the Congress and will work to sustain
those important relationships as Acting IG.            Notwithstanding a very positive environment at
                                                       the FDIC, a number of challenges and potential
The banking industry is currently very healthy—        risks to the FDIC persist. The FDIC continues
according to the Federal Deposit Insurance Cor-        its downsizing initiatives, and even with fewer
poration’s (FDIC) Letter to Stakeholders for the       resources, it must accomplish its mission of
first quarter of 2005, FDIC-insured commercial         maintaining public confidence and trust in the
banks and savings institutions had income of           nation’s financial system. As history would
$123 billion in 2004, surpassing the 2003 record       remind us, it also needs to ensure its readiness
of $120.5 billion and representing the industry’s      for the unforeseen. At the Corporation’s
fourth consecutive earnings record. During the         2005 Leadership Conference in February, the
reporting period, the Corporation also received        FDIC’s management team engaged in thought-
its 13th consecutive set of unqualified opinions       provoking dialog on the challenges and future
on the financial statements of the three funds it      direction of the Corporation. It identified com-
manages. And for the first time in several years,      munity banks, large complex insured institu-
the Government Accountability Office did not           tions, and consumer protection as areas of
cite any reportable condition. The Corporation         emphasis. With respect to steps that the FDIC
can be especially proud that its rigorous efforts      should take to achieve its vision, another three

                                                                                                            1
    pivotal areas emerged: employee development,          caseload is generated by referrals from within the
    good management, and organizational culture.          FDIC. The Department of Justice is the other
                                                          primary source of referrals. Our investigative
    The OIG’s work is designed to address these and       work also assists the Corporation as it pursues
    other management and performance areas of             parallel enforcement and/or civil actions. Our
    challenge. With respect to downsizing and             investigative staff will continue to work closely
    human capital concerns, for example, we con-          with all FDIC offices to maximize the benefits
    ducted a review of the Division of Supervision        that can be derived as we each pursue our mis-
    and Consumer Protection’s workforce planning          sions. Another area where our investigations tar-
    and made recommendations to enhance some of           get issues of concern to the Corporation involves
    the ongoing efforts to prepare for future work-       our work on consumer protection issues such as
    load, competencies, and skills demands. The           privacy, identity theft, and misrepresentation of
    Corporation’s new financial environment invest-       FDIC insurance or affiliation.
    ment is another undertaking that we are moni-
    toring and have reported on. This critical system     These are times of significant internal change
    will consolidate the operations of multiple sys-      and transition for the OIG. In addition to the
    tems and modernize the Corporation’s financial        former IG’s retirement, we have lost several staff
    reporting capabilities. Plans are to launch the       to buyouts, retirements, and attrition. We appre-
    NFE core financial system on May 2, 2005, and         ciate their many contributions to our office and
    we will continue our efforts in this area after the   wish them well in the future. We will continue to
    system is implemented.                                assess optimum staffing levels and our organiza-
                                                          tional structure to ensure we are best positioned
    With the global threat of terrorism, another con-     to assist the Corporation as it undergoes transi-
    tinuing challenge for the FDIC is to ensure that      tion and pursues the corporate priorities.
    banks maintain effective Bank Secrecy Act
    (BSA) programs and create environments where          In closing, I would like to acknowledge FDIC
    attempts to use the American financial system for     Board Member James Gilleran, Director of the
    money laundering or terrorist financing will be       Office of Thrift Supervision (OTS), who
    thwarted. One of our most significant reports         announced on April 18, 2005 that he would
    during the reporting period was based on a letter     be leaving his position effective April 29.
    from the Chairman of the Senate Committee on          Mr. Gilleran served on the FDIC Audit Commit-
    Banking, Housing, and Urban Affairs, requesting       tee, and we appreciated his interest in the work of
    our independent assessment of circumstances           our office over the years. On April 27, the White
    leading to an institution’s BSA violations. Our       House announced its intention to nominate John
    work resulted in 11 recommendations to en-            Reich, Vice Chairman of the Board of Directors
    hance institutions’ compliance with the Act, and      of the FDIC, to fill the position of Director of the
    the Corporation is taking prompt action in            OTS. He will continue to serve as Vice Chairman
    response. Several recommendations involve             pending his confirmation by the Senate. As the
    actions to be pursued in conjunction with the         FDIC Vice Chairman and Chairman of the Audit
    other federal regulators.                             Committee, Mr. Reich has been a consistent sup-
                                                          porter of a strong OIG, and it has been a pleasure
    A large volume of our investigative work during       to work with him. On behalf of the OIG, I wish
    the reporting period has addressed integrity and      him great success in his pursuit of a new leader-
    corporate governance issues in insured institu-       ship role in the financial services industry and
    tions. In the Investigations section of this semi-    look forward to continuing to work with him on
    annual report, we recount a number of cases           regulatory issues of mutual interest.
    where senior bank management officials and
    other associated parties have been charged with
    or sentenced for engaging in financial institution
    fraud. As another example of the value of coordi-     Patricia M. Black
    nated working relations with the Corporation,         Acting Inspector General
    over 50 percent of our financial institution fraud    April 30, 2005

2
                                                      Overview

Management and                                        ■   Protection of Consumer Interests

Performance Challenges                                ■   Corporate Governance in the FDIC
The Management and Performance Challenges
section of our report presents OIG results of         ■   Resolution and Receivership Activities
audits, evaluations, and other reviews carried out
during the reporting period in the context of the     OIG work conducted to address these areas
OIG’s view of the most significant management         during the current reporting period includes
and performance challenges currently facing the       17 audit and evaluation reviews containing
Corporation. We identified the following seven        questioned costs and funds put to better use of
management and performance challenges and,            $11.9 million and 37 nonmonetary recommen-
in the spirit of the Reports Consolidation Act of     dations; investigations addressing a number of
2000, we presented our assessment of them to the      the areas of challenge; comments and input to
Chief Financial Officer of the FDIC in December       the Corporation’s draft policies in significant
2004. The Act calls for these challenges to be pre-   operational areas; participation at meetings,
sented in the FDIC’s consolidated performance         symposia, conferences, and other forums to
and accountability report. The FDIC includes          jointly address issues of concern to the Corpora-
such reporting as part of its Annual Report.          tion and the OIG; and assistance provided to the
Our work has been and continues to be largely         Corporation in such areas as presentations on
designed to address these challenges and thereby      red flags of fraud and review of the Corporation’s
help ensure the FDIC’s successful accomplish-         draft 2005 Annual Performance Plan. (See pages
ment of its mission.                                  7-23.)

■   Corporate Governance in Insured Depository
    Institutions                                      Investigations:
■   Management and Analysis of Risks to the
                                                      Making an Impact
    Insurance Funds                                   In the Investigations section of our report, we
                                                      feature the results of work performed by OIG
■   Security Management                               agents in Washington, D.C.; Atlanta; Dallas; and
                                                      Chicago. OIG agents conduct investigations of
■   Money Laundering and Terrorist Financing          alleged criminal or otherwise prohibited activ-

                                                                           Management and Performance Challenges 3
       ities related to the FDIC and its programs. In          OIG Organization:
       conducting investigations, the OIG works closely
       with U.S. Attorneys’ Offices throughout the             Pursuing OIG Goals
       country in attempting to bring to justice individ-      In the Organization section of our report, we
       uals who have defrauded the FDIC. The legal             note some of the significant internal activities
       skills and outstanding direction provided by            that the FDIC OIG has pursued during the past
       Assistant U.S. Attorneys with whom we work are          6 months in furtherance of our four strategic
       critical to our success. The results we are report-     goals and corresponding objectives. These activi-
       ing for the last 6 months reflect the efforts of U.S.   ties complement and support the audit, evalua-
       Attorneys’ Offices throughout the United States.        tion, and investigative work discussed in the
       Our write-ups also reflect our partnering with          earlier sections of our report. Activities of OIG
       the Federal Bureau of Investigation, the Internal       Counsel and cumulative OIG results covering the
       Revenue Service, and other law enforcement              past five reporting periods are also shown in this
       agencies in conducting investigations of joint          section. (See pages 39-47.)
       interest. Additionally, we acknowledge the
       invaluable assistance of the FDIC’s Divisions and
       Offices with whom we work closely to bring              Statistical Information
       about successful investigations.                        Required by the
       Investigative work led to indictments or criminal
                                                               Inspector General Act
       charges against 13 individuals and convictions of       This section of our report contains much of the
       8 defendants during the period. Criminal charges        statistical information required under the Inspec-
       remained pending against 31 individuals as of           tor General Act, as amended. (See pages 51-55.)
       the end of the reporting period. Fines, restitu-
       tion, and recoveries resulting from our cases
       totaled approximately $24.1 million. This section       Other Material
       of our report also includes a discussion of the         We bid farewell to our former Inspector General,
       work of our Electronic Crimes Unit and cites            Gaston L. Gianni, Jr., and four other retired OIG
       recognition of several of our Special Agents.           staff members whose contributions to our office
       (See pages 24-38.)                                      are very much appreciated. (See pages 56-57.)




4 SEMIANNUAL REPORT TO THE CONGRESS
                                                        Highlights

■   The Office of Audits issues 17 reports contain-         mately $4.7 million of that amount represents
    ing total questioned costs of $2.3 million and          court-ordered restitution.
    funds put to better use of $9.6 million.
                                                        ■   The OIG sponsors an Information Technol-
■   OIG reports include 37 nonmonetary recom-               ogy Security Committee meeting, bringing
    mendations to improve corporate operations              together representatives of 18 federal agencies
    and activities. Among these are recommen-               to share information, ideas, and best practices
    dations to strengthen the FDIC’s supervision            related to implementation of the Federal
    of institutions’ compliance with the Bank               Information Security Management Act of
    Secrecy Act (BSA), improve the economy and              2002 governmentwide.
    efficiency of procurement of administrative
    goods and services, develop a plan for the          ■   OIG counsel provides advice and counsel on
    New Financial Environment post-installation             a number of issues, including E-government
    tasks and related controls, strengthen security         initiatives; protection of sensitive informa-
    controls over the Corporation’s e-mail infra-           tion; contract interpretations; and bank
    structure, and enhance DSC workforce plan-              supervision matters involving the USA
    ning activities.                                        PATRIOT Act, Bank Secrecy Act, and Bank
                                                            Merger Act. Counsel is involved in 22 litiga-
■   The OIG completes its work on the FDIC’s                tion matters, 2 of which were resolved during
    supervision of an institution’s compliance              the reporting period.
    with the BSA, as requested by the Chairman
    of the Senate Committee on Banking, Hous-           ■   The OIG reviews and comments on 1 legisla-
    ing, and Urban Affairs and provides its report          tive proposal, 3 proposed formal regulations,
    to the FDIC and the Congress. The report                and 19 proposed FDIC policies and directives.
    makes 11 recommendations to FDIC manage-                Substantive comments are provided to the
    ment to strengthen the BSA examination                  Corporation related to proposed policies on
    process and oversight of institutions’ compli-          various aspects of training and development,
    ance with the BSA.                                      the Privacy Counterparts Group, and infor-
                                                            mation technology security risk management.
■   OIG investigations result in 13 indictments/
    informations; 8 convictions; and approxi-           ■   The OIG coordinates with and assists man-
    mately $24.1 million in total fines, restitution,       agement on a number of initiatives, including
    and other monetary recoveries. Approxi-                 serving in an advisory capacity on the Audit

                                                                                                              5
           Committee’s Information Technology Secu-               pleading guilty to two counts of securities
           rity Subcommittee and the Chief Financial              fraud. He faces a maximum term of
           Officer Council, Office of Investigations and          10 years’ imprisonment on each count,
           Office of Audits executives’ participation at          a maximum fine of $1 million, and
           the Division of Supervision and Consumer               restitution.
           Protection regional office and other meetings,
           and issuance of the OIG’s assessment of the          • The former Chairman of the Board of
           most significant management and perform-               Directors, Connecticut Bank of Commerce,
           ance challenges facing the Corporation for             being sentenced to 51 months’ incarceration
           inclusion in the FDIC’s 2004 annual report.            and 36 months’ supervised release. Earlier,
                                                                  the former Chairman had also paid the
       ■   OIG Special Agents are acknowledged for                FDIC $8.5 million as part of his settlement
           exemplary work in the investigations relating          of the Corporation’s administrative charges
           to Sinclair National Bank and a contractor             against him.
           fraud scheme related to bomb-sniffing dogs
           provided to the U.S. government.                 ■   The Electronic Crimes Unit coordinates with
                                                                the Division of Supervision and Consumer
       ■   The OIG receives 96 Hotline allegations and          Protection, Legal Division, and Division of
           refers 10 allegations for further review.            Information Technology to establish ways to
                                                                best address cyber crimes, including intru-
       ■   The OIG conducted successful investigations          sions, phishing and spoofing schemes, and
           during the period resulting in:                      employee/contractor computer misuse.

           • The former Chairman and Chief Executive        ■   The OIG issues its Fiscal Year 2005 Perfor-
             Officer (CEO) of Community Bank,                   mance Plan, identifying 39 specific annual
             Blountsville, Alabama, being found guilty          performance goals in support of our strategic
             on 15 counts of conspiracy, bank fraud,            goals and objectives. The plan reflects the
             causing false entries in bank records, and         OIG’s continued emphasis on Adding Value,
             filing false income tax returns.                   Communication, Human Capital, and
                                                                Resource Management.
           • The former CEO of Stevens Financial
             Group being sentenced to 5 years in prison     ■   The OIG cosponsors an Emerging Issues in
             and ordered to pay restitution of $4.2 mil-        Banking Symposium with the Federal Reserve
             lion to the FDIC.                                  Board and Department of the Treasury OIGs
                                                                to hear from leading experts about emerging
           • The President (who was also a director) of         issues that impact our collective and indi-
             Hamilton Bancorp and Hamilton Bank                 vidual work and responsibilities.




6 SEMIANNUAL REPORT TO THE CONGRESS
                                              Management and
                                              Performance Challenges

                                              In the spirit of the Reports Consolidation Act of
                                              2000, and to provide useful perspective for read-
The Federal Deposit Insurance Corpora-        ers, we present a large body of our work in the
tion (FDIC) is an independent agency cre-     context of “the most significant management and
ated by the Congress to maintain stability    performance challenges” facing the Corporation.
and confidence in the nation’s banking        The Act calls for these challenges to be included
                                              in the consolidated performance and accounta-
system by insuring deposits, examining
                                              bility reports of those federal agencies to which
and supervising financial institutions, and   it applies.
managing receiverships. Approximately
5,125 individuals within seven specialized    In December 2004, we updated our assessment of
operating divisions and other offices         these challenges and provided them to the Cor-
carry out the FDIC mission throughout         poration. The 7 challenges we have identified are
the country. According to most current
                                              listed below in priority order. In the past several
                                              years, we identified 10 challenges. As part of our
data in the Corporation’s Letter to Stake-
                                              December 2004 assessment, we consolidated a
holders, issued for the 1st Quarter 2005,     number of the challenges into “Corporate Gov-
the FDIC insured $3.623 trillion in de-       ernance in the FDIC” and introduced “Money
posits for 8,988 institutions, of which the   Laundering and Terrorist Financing” as a new
FDIC supervised 5,268 institutions. The       challenge.
Corporation held insurance funds of
                                              The Corporation has a number of actions under
$47.5 billion to ensure depositors are
                                              way to address many of the issues discussed
safeguarded. The FDIC had $524 million        below, and we encourage continued attention
in assets in liquidation in 33 Bank Insur-    to each challenge. We will continue to conduct
ance Fund and Savings Association             audits, evaluations, investigations, and other
Insurance Fund receiverships.                 reviews related to these challenges and look for-
                                              ward to continuing to work cooperatively with
                                              the Corporation as we do so.

                                              We identified the following challenges, and the
                                              Corporation included them in its 2004 Annual
                                              Report:

                                                                                                    7
       1. Corporate Governance in Insured                    financial reports from insured depository institu-
          Depository Institutions                            tions are critical to FDIC mission achievement.
                                                             Supervision and insurance aspects of the Corpo-
       2. Management and Analysis of Risks to the            ration’s mission can be complicated and poten-
          Insurance Funds                                    tially compromised by poor quality financial
                                                             reports and audits. In the worst case, illegal and
       3. Security Management                                otherwise improper activity by management of
                                                             insured institutions or their boards of directors
       4. Money Laundering and Terrorist Financing           can be concealed, resulting in potential signifi-
                                                             cant losses to the FDIC insurance funds.
       5. Protection of Consumers’ Interests
                                                             The FDIC has initiated various measures de-
       6. Corporate Governance in the FDIC                   signed to mitigate risks posed by these concerns,
                                                             such as reviewing the bank’s board activities and
       7. Resolution and Receivership Activities
                                                             ethics policies and practices and reviewing audi-
                                                             tor independence requirements. In fact, many of
                                                             the Sarbanes-Oxley Act requirements parallel
       1. Corporate Governance                               those already applicable to the FDIC. The FDIC
          in Insured Depository                              also reviews publicly traded companies’ compli-
                                                             ance with Securities and Exchange Commission
          Institutions                                       regulations and the policies of the Federal Finan-
       Corporate governance is generally defined as the      cial Institutions Examination Council to help
       fulfillment of the broad stewardship responsibili-    ensure accurate and reliable financial reporting
       ties entrusted to the Board of Directors, officers,   through an effective external auditing program
       and external and internal auditors of a corpora-      and on-site FDIC examination. Other corporate
       tion. A number of well-publicized announce-           governance initiatives include issuing Financial
       ments of business and accountability failings,        Institution Letters, allowing bank directors to
       including those of financial institutions, have       participate in regular meetings between examin-
       raised questions about the credibility of manage-     ers and bank officers, maintaining a “Directors’
       ment oversight and accounting practices in the        Corner” on the FDIC Web site, and expanding the
       United States. In certain cases, board members        Corporation’s “Directors’ College” program, as
       and senior management engaged in high-risk            well as expanding examiner guidance on the risks
       activities without proper risk management             posed by dominant officials. The FDIC has made
       processes, did not maintain adequate loan pol-        significant strides; however, achieving sound cor-
       icies and procedures, and circumvented or dis-        porate governance without undue regulatory bur-
       regarded various laws and banking regulations.        den remains a management challenge.
       In an increasingly consolidated financial indus-
       try, effective corporate governance is needed to      The assessment of management is one of the
       ensure adequate stress testing and risk manage-       most important aspects of a bank examination.
       ment processes covering the entire organization.      Failure to appropriately evaluate management
       Adequate corporate governance protects the            risks increases the opportunity for fraud or mis-
       depositor, institution, nation’s financial system,    management to go undetected and uncorrected
       and FDIC in its role as deposit insurer. A lapse in   and could ultimately cause an institution to fail.
       corporate governance can lead to a rapid decline      Independent boards of directors, effective secu-
       in public confidence, with potentially disastrous     rity programs, and strong commitments to
       results to the institution.                           sound internal control, and compliance with
                                                             laws and regulations, all complement the FDIC’s
       The Sarbanes-Oxley Act of 2002 has focused            supervision and monitoring of insured depos-
       increased attention on management assessments         itory institutions.
       of internal controls over financial reporting and
       the external auditor attestations of these assess-    Our investigative work is one way of addressing
       ments. Strong stewardship along with reliable         corporate governance issues. In a number of

8 SEMIANNUAL REPORT TO THE CONGRESS
cases, financial institution fraud is a principal    ness examinations, and offsite monitoring for
contributing factor to an institution’s failure.     supervising ILCs and their parent companies,
Unfortunately, the principals of some of these       particularly in cases where consolidated supervi-
institutions—that is, those most expected to         sion is not provided by another federal regulator.
ensure safe and sound corporate governance—
are at times the parties perpetrating the fraud.     The failure of a large bank, along with the po-
Our Office of Investigations plays a critical role   tential closing of closely affiliated smaller insti-
in addressing such activity. (See pages 24-38 in     tutions, could result in losses to the deposit
the Investigations section of this report for        insurance funds that require significant increases
specific examples of bank fraud cases involving      in premium assessments from all insured institu-
corporate governance weaknesses.)                    tions. To address the risks associated with large
                                                     banks for which the FDIC is the insurer but is
                                                     not the primary federal regulator, the FDIC initi-
2. Management and                                    ated, in 2002, the Dedicated Examiner Program
                                                     for the largest banks in the United States. One
   Analysis of Risks to the                          senior examiner from the FDIC is dedicated to
   Insurance Funds                                   each institution and participates in targeted re-
                                                     views or attends management meetings. Addi-
A primary goal of the FDIC under its insurance
                                                     tionally, case managers closely monitor such
program is to ensure that its deposit insurance
                                                     institutions through the Large Insured Deposi-
funds do not require augmentation by the
                                                     tory Institutions Program’s quarterly analysis
U.S. Treasury. Achieving this goal is a challenge
                                                     and executive summaries and consistently re-
that requires effective communication and coor-
                                                     main in communication with their counterparts
dination with the other federal banking agen-
                                                     at the other regulatory agencies, frequently
cies. The FDIC engages in an ongoing process of
                                                     attending pre-examination meetings, post-
proactively identifying risks to the deposit
                                                     examination meetings, and exit board meetings.
insurance funds and adjusting the risk-based
deposit insurance premiums charged to the
                                                     Large banks may pose greater risks to the insur-
institutions.
                                                     ance funds as a result of the Basel II capital
Recent trends and events continue to pose risks      accord, which aims to align capital reserves more
to the funds. The consolidations that have           closely with the risks faced by banks and thrifts
occurred and may continue to occur among             operating internationally. The Basel II standard is
banks, securities firms, insurance companies, and    mandatory for the largest internationally active
other financial services providers resulting from    banks that have either total commercial bank
the Gramm-Leach-Bliley Act involve increasingly      assets of $250 billion or more or foreign expo-
diversified activities and associated inherent       sure of $10 billion or more and optional for large
risks. The bank mergers have created “large          banks below these thresholds. Basel II will have
banks,” which are generally defined as institu-      far-reaching effects on the management and
tions with assets of over $25 billion. For many of   supervision of the largest, most complex banking
these institutions, the FDIC is the insurer but is   organizations in the world. The United States has
not the primary federal regulator.                   an important role in Basel II implementation be-
                                                     cause it supervises more bank assets than the
In addition, the FDIC is the primary federal reg-    other accord participants. Issues that must be
ulator for a number of industrial loan companies     addressed before the United States implements
(ILCs), which are insured depository institutions    the Basel II accord are: (1) assuring appropriate
owned by organizations that are subject to vary-     minimum capital standards for banks regardless
ing degrees of federal regulation. ILC charters      of the results of proposed capital models,
allow mixing of banking and commerce, which is       (2) establishing a consistent supervisory process
otherwise prohibited for most other depository       for ensuring that banks’ internal risk estimates
institutions owned by commercial firms. The          are sound and conservative, and (3) vetting any
FDIC has instituted controls in its processes for    potential anti-competitive effects with all inter-
deposit insurance applications, safety and sound-    ested parties.

                                                                         Management and Performance Challenges 9
       There is also ongoing consideration to merging       In an audit conducted during the reporting
       the Bank Insurance Fund (BIF) and Savings            period, we assessed the adequacy of processes,
       Association Insurance Fund (SAIF). The merged        reports, and other data that DSC uses in moni-
       fund would not only be stronger and better           toring MERIT examination coverage of financial
       diversified but would also eliminate the concern     institutions. We determined that DSC collects
       about a deposit insurance premium disparity          and evaluates readily available information
       between the BIF and the SAIF. Assessments in the     related to the efficiency, quality, and integrity of
       merged fund would be based on the risk that          all examinations, including those conducted
       institutions pose to that fund. The Corporation      under the MERIT guidelines. This information
       has worked hard to bring about deposit insur-        shows that application of the MERIT guidelines
       ance reform, and during the reporting period the     for well-rated and well-capitalized institutions
       FDIC Chairman again testified on deposit insur-      has increased examination efficiency primarily as
       ance reform before the House Financial Services      the result of fewer loans being reviewed compared
       Committee, Subcommittee on Financial Institu-        to prior risk-focused examinations. Further, DSC
       tions and Consumer Credit.                           has risk management processes and monitoring
                                                            systems in place for monitoring its overall exami-
       As the banking industry has become more              nation program and the risks to individual insti-
       sophisticated, the FDIC has developed cutting        tutions and the industry as a whole.
       edge risk-management techniques to identify,
       measure, and manage risk to the insurance            However, we reported that DSC could benefit
                                                            from a monitoring process that specifically evalu-
       funds. In 2003 the FDIC created its Risk Analysis
                                                            ates, in terms of risk, the outcome of the reduced
       Center to better coordinate risk monitoring and
                                                            loan penetration at MERIT examinations, either
       action plans among the various business units in
                                                            at the institution level or, more broadly, at the
       the FDIC. The Risk Analysis Center represents a
                                                            regional or national level. Such ongoing analysis
       best practice that brings together economists,
                                                            would assist DSC in determining whether recom-
       examiners, financial analysts, and others involved
                                                            mended loan penetration ranges under MERIT
       in assessing risk to the banking industry and the
                                                            are commensurate with the risk associated with
       deposit insurance funds.
                                                            various types of loan portfolios in low-risk insti-
                                                            tutions. We made a recommendation to that
       Tracking and Evaluating                              effect. We also found that examiners are required
                                                            to justify loan penetration levels above, but not
       MERIT Guidelines                                     below, MERIT-recommended ranges. We recom-
       For examinations commencing after March 31,          mended a clarification of this policy to promote
       2002, the Division of Supervision and Con-           the balance DSC is seeking to achieve in provid-
       sumer Protection (DSC) implemented the Max-          ing risk-based coverage under MERIT and to
       imum Efficiency, Risk-Focused, Institution           ensure that reduced loan penetration is ade-
       Targeted Examinations Program (MERIT)                quately supported.
       guidelines to assist examiners in the risk-focus-
       ing process for well-rated, well-capitalized banks   In response to our draft report, DSC provided
       with assets totaling $250 million or less, while     additional information on its existing and
       maintaining the integrity of the examination         planned monitoring processes that satisfy the
       process. Subsequently, DSC increased the total       first recommendation. DSC concurred with the
                                                            second recommendation regarding justification
       asset threshold to $1 billion for examinations
                                                            of reduced loan penetration ratios.
       commencing after January 31, 2004. The MERIT
       procedures reemphasized existing risk-focused
       examination procedures and the use of exam-          3. Security Management
       iner judgment to properly assess a financial
       institution’s risk profile. The MERIT guidelines     The FDIC relies heavily upon automated infor-
       established loan penetration ratios to help stan-    mation systems to collect, process, and store vast
       dardize the percentage of loans reviewed during      amounts of banking information. Much of this
       MERIT examinations.                                  information is used by financial regulators, aca-

10 SEMIANNUAL REPORT TO THE CONGRESS
demia, and the public to assess market and insti-      needs to ensure the effectiveness of its oversight
tution conditions, develop regulatory policy, and      of contractors with access to sensitive data,
conduct research and analysis on important             ensure the security of its network resources, and
banking issues. Ensuring the confidentiality,          ensure that its enterprise security architecture is
integrity, and availability of this information in     fully defined and integrated with corporate bus-
an environment of increasingly sophisticated           iness and information technology operations.
security threats requires a strong, enterprise-        Security-related threats include those focusing
wide information security program. It also             on disrupting the economic security of our
requires compliance with applicable statutes and       nation. The FDIC and insured depository insti-
policies aimed at promoting information secu-          tutions need to ensure sound disaster recovery
rity throughout the federal government. One            and business continuity planning is present to
such statute is Title III of the E-Government Act      safeguard depositors, investors, and others that
of 2002, commonly referred to as the Federal           depend on the financial services.
Information Security Management Act of 2002
(FISMA).
                                                       Security Controls Over the
As a result of focused efforts over the past several   FDIC’s E-mail Infrastructure
years, the FDIC has made significant progress in
                                                       E-mail is an integral aspect of the FDIC’s busi-
improving its information security controls and        ness operations. During the reporting period we
practices and addressing current and emerging          issued the results of an audit conducted on our
information security requirements mandated by          behalf by International Business Machines (IBM)
FISMA. However, the FDIC recognized that con-          Business Consulting Services related to e-mail
tinued improvements in its information security        security. We concluded that the FDIC had im-
program and practices were needed. In its 2004         plemented many of the security controls rec-
annual report, the FDIC identified information         ommended by government-wide standards.
security as a high vulnerability issue within the      However, the FDIC needed to take additional
Corporation. The FDIC also identified improve-         steps to ensure adequate confidentiality, integrity,
ments in its information security program as a         and availability of data stored and transmitted in
major corporate priority in its 2004 Annual Per-       e-mail. Our report included a total of eight rec-
formance Plan. Actions taken as a result have          ommendations to strengthen technical security
strengthened the program and contributed to            controls, improve the vulnerability scanning
the removal of information systems security as         process, and ensure retention of electronic
a reportable condition in the Government               records when employees leave the Corporation.
Accountability Office’s (GAO) financial state-         The Corporation’s response adequately ad-
ment audit of the insurance funds.                     dressed our concerns.

Although progress in strengthening the FDIC’s
information security program and practices has
                                                       Security of the ViSION
been notable, additional control improvements          Application
and associated implementation activities are nec-      The Virtual Supervisory Information on the Net
essary. This is challenging because as a result of     application (ViSION) is a major application that
the Division of Information Technology’s (DIT)         provides access to financial, examination, and
transformation initiatives, a large number of          supervisory information on financial institu-
staff will be leaving, and DIT will be seeking to      tions. The information contained in the applica-
become more aligned, focused, and efficient.           tion is highly confidential and not available to
Continued management attention is needed to            the public.
ensure that the FDIC’s information security risk
management program and practices are consis-           We audited the adequacy of the progress that the
tent with National Institute of Standards and          FDIC has made in implementing the agreed-to
Technology standards and guidance and current          corrective actions from our prior report entitled,
best practices in the industry. The FDIC also          FDIC’s Virtual Supervisory Information on the Net

                                                                          Management and Performance Challenges 11
       Application, issued on July 30, 2004. In that          cilitate criminal activities, including terrorist
       report we had concluded that key management            financing.
       and operational controls provided only limited
       assurance of adequate security and made six            Through its examiners, the FDIC seeks to ensure
       recommendations to address our concerns. In            that institutions have a strong BSA program to
       our follow-up report, we concluded that the            address money laundering and terrorist financ-
       Corporation had made substantial progress in           ing concerns. While many FDIC-supervised
       implementing corrective actions on our earlier         institutions are diligent in their efforts to estab-
       recommendations. Five of the six recommen-             lish, execute, and administer effective BSA com-
       dations were closed and the remaining correc-          pliance programs, there have been instances
       tive action was to be completed by March 31,           where controls and efforts were lacking. When
       2005.                                                  such instances are identified in the course of
                                                              examinations, the FDIC may request bank man-
       The OIG has begun its 2005 work pursuant to            agement to address the deficiencies in a written
       the FISMA. As in past evaluations, we will evalu-      response to the FDIC, outlining the corrective
       ate the effectiveness of the FDIC’s security pro-      action proposed and establishing a timeframe for
       gram and practices, including its compliance           implementation, or the FDIC may pursue an
       with FISMA and related policies, procedures,           enforcement action. The FDIC needs to
       standards, and guidelines. We will assess progress     strengthen its follow-up process for BSA viola-
       made relative to the baseline established in our       tions. The FDIC is taking action to expand its
       2004 report as well. We expect to report our           pool of BSA specialists, ensure adequate coverage
       results in our next semiannual report.                 of BSA compliance in state examinations, and
                                                              update its BSA examination in conjunction with
                                                              other federal regulators.
       4. Money Laundering and                                In addition, in September 2004, the Financial
          Terrorist Financing                                 Crimes Enforcement Network (FinCEN), an
                                                              arm of the U.S. Treasury Department, signed an
       The nation continues to face the global threat of      information-sharing Memorandum of Under-
       terrorism. In response to this threat, the Con-        standing with the Federal Banking Agencies
       gress enacted the Uniting and Strengthening            (FBAs), including the FDIC. The Memorandum
       America by Providing Appropriate Tools Re-             of Understanding requires an increased level of
       quired to Intercept and Obstruct Terrorism Act         BSA reporting and accountability between the
       of 2001, Public Law 107-56 (USA PATRIOT Act),          FBAs and FinCEN. Specifically, the FBAs will
       which expands the Treasury Department’s                notify FinCEN of significant violations of BSA
       authority initially established under the Bank         laws and regulations by institutions, enforcement
       Secrecy Act of 1970 (BSA) to regulate the activ-       actions taken, and resolution of enforcement
       ities of U.S. financial institutions, particularly     actions. Similarly, FinCEN, based on its analyses of
       their relations with individuals and entities with     BSA violations, will notify FBAs of common BSA
       foreign ties.                                          compliance deficiencies, patterns, and best prac-
                                                              tices; and assist FBAs in identifying BSA compli-
       Specifically, the USA PATRIOT Act expands the          ance deficiencies within banking organizations.
       BSA beyond its original purpose of deterring and
       detecting money laundering to also address ter-        The continuing challenge facing the FDIC is to
       rorist financing activities. In today’s global bank-   ensure that banks maintain effective BSA pro-
       ing environment, where funds are transferred           grams that will ultimately create an environment
       instantly and communication systems make               where attempts to use the American financial
       services available internationally, a lapse at even    system for money laundering or terrorist financ-
       a small financial institution outside of a major       ing will be identified and thwarted. The FDIC
       metropolitan area can have significant implica-        anti-money laundering supervision program is a
       tions across the nation. The reality today is that     matter for continued monitoring in the Corpo-
       all institutions are at risk of being used to fa-      ration’s 2004 annual report.

12 SEMIANNUAL REPORT TO THE CONGRESS
OIG Audits the FDIC’s                                  ■   Emphasize institution compliance with BSA
                                                           requirements through continued outreach to
Supervision of an Institution’s                            the financial services industry on the require-
Compliance with BSA                                        ments of the BSA, the USA PATRIOT Act, and
During the reporting period, we issued a report            the implementing regulations.
on the FDIC’s supervision of a specific institu-
tion’s compliance with BSA. The audit included         ■   Require transaction testing in all BSA compli-
a review of selected institutions whose assets and         ance examinations by expanding core proce-
insured deposits had been sold by the FDIC to              dures to include transaction testing.
the institution that was the principal focus of
our audit.                                             ■   Require examiners to perform at least the core
                                                           and expanded BSA examination procedures
We conducted this audit in response to a letter            at FDIC-supervised institutions if any one
from the Chairman of the Senate Committee on               of a defined set of BSA assessment factors is
Banking, Housing, and Urban Affairs, requesting            present.
our independent assessment of the circum-
stances related to the institution’s BSA violations.   ■   Ensure that the adequacy of the BSA compli-
We provided copies of the report to the Commit-            ance program is a key component in the
tee Chairman and Ranking Member concurrent                 assignment of the management rating for
with release of the report to the Corporation.             safety and soundness examinations.
The audit report contains extensive examination-
related and other sensitive information and will       ■   Assess, in conjunction with the other federal
be made publicly available only in summary                 banking regulators, the merits of a numeric
fashion.                                                   rating system for BSA compliance.

We reported that responsibilities to ensure com-       ■   Issue BSA supervisory and enforcement
pliance with the BSA were not adequately ful-              action guidance that outlines how the BSA
filled by either institution management or the             assessment factors will be considered in deter-
FDIC. Corporate governance at the financial                mining appropriate action to be taken as part
institution and two former institutions was not            of the BSA examination process.
sufficient to ensure that they met BSA require-
ments. The FDIC’s examinations identified sig-
                                                       ■   Develop an internal control process to verify
nificant BSA violations and deficiencies, but the
                                                           that all BSA violations are promptly included
examinations generally lacked sufficient follow-
                                                           in the systems used to report this information
up on corrective measures promised but not
                                                           to the Treasury.
implemented by institution management. Con-
sequently, weak BSA compliance programs per-
                                                       ■   Establish an inter-divisional task force to
sisted for extended periods. In addition, the
FDIC should have more thoroughly considered                revise FDIC policies and procedures to define
the impact of BSA compliance violation and                 the process to be used during franchise mar-
deficiency histories in connection with the Cor-           keting to ensure that BSA compliance issues
poration’s decision to qualify the potential               are appropriately considered.
acquirers of a failed institution.
                                                       ■   Clarify policies and procedures regarding
Our report made the following recommenda-                  information that should be specifically con-
tions to FDIC management:                                  sidered in approving purchase and assump-
                                                           tion transactions.
■   Propose a requirement to the Treasury and the
    other federal banking regulators that institu-     ■   Establish procedures to eliminate institutions
    tion management periodically certify the               with inadequate BSA compliance programs
    implementation and oversight of an institu-            from consideration for eligibility to bid on
    tion’s BSA compliance program.                         franchises or failed bank assets.

                                                                          Management and Performance Challenges 13
       The FDIC concurred with our findings and is           initiative is a key outreach effort. The FDIC also
       making significant improvements in its super-         continues to maintain a Consumer Affairs pro-
       vision of institution BSA compliance programs         gram by investigating consumer complaints
       in response to our recommendations and its own        against FDIC-supervised institutions, answering
       initiatives.                                          consumer inquiries regarding consumer protec-
                                                             tion laws and banking practices, and providing
                                                             data to assist the examination function. Further,
       5. Protection of                                      the Corporation’s deposit insurance program pro-
                                                             motes public understanding of the federal deposit
          Consumers’ Interests                               insurance system and seeks to ensure that deposi-
       In addition to its mission of maintaining public      tors and bankers have ready access to information
       confidence in the nation’s financial system, the      about the rules for FDIC insurance coverage.
       FDIC also serves as an advocate for consumers
       through its oversight of a variety of statutory and   Protecting consumers from unscrupulous bank-
       regulatory requirements aimed at protecting           ing practices also continues to be a challenge. For
       consumers from unfair and unscrupulous bank-          example, “predatory lenders” knowingly lend
       ing practices. The FDIC is legislatively mandated     more money than a borrower can afford to
       to enforce various statutes and regulations re-       repay; charge high interest rates to borrowers
       garding consumer protection and civil rights          based on their race or national origin and not on
       with respect to state-chartered, non-member           their credit history; charge fees for unnecessary
       banks and to encourage community investment           or nonexistent products and services; pressure
       initiatives by these institutions.                    borrowers to accept higher-risk loans such as
                                                             balloon loans, interest only payments, and steep
       The FDIC accomplishes its mission of protecting       pre-payment penalties; and “strip” homeowners’
       consumers under various laws and regulations by       equity by convincing them to refinance again and
       conducting compliance examinations and Com-           again when there is no benefit to the borrower.
       munity Reinvestment Act (CRA) evaluations.            These practices ultimately put borrowers at risk
       The FDIC takes enforcement actions to address         of losing their homes and other investments.
       compliance violations, encourages public in-
       volvement in the community reinvestment               A number of new consumer protection regula-
       process, assists financial institutions with fair     tions have been introduced over the past several
       lending and consumer compliance through edu-          years. The emergence and continued expansion
       cation and guidance, and provides assistance to       of electronic banking presents a challenge for
       various parties within and outside of the FDIC.       ensuring that consumers are protected. The
       The Corporation has also developed a program          number of reported instances of identity theft
       to examine institution compliance with privacy        has ballooned in recent years. The Corporation
       laws.                                                 will need to remain vigilant in conducting com-
                                                             prehensive, risk-based compliance examinations
       The FDIC also has a Community Affairs pro-            that ensure the protection of consumer interests,
       gram that provides technical assistance to help       analyzing and responding appropriately to con-
       banks meet their responsibilities under the CRA.      sumer complaints, and educating individuals on
       The Corporation will need to remain diligent in       money management topics, including identity
       its efforts to work with the other federal banking    protection and how to avoid becoming victims of
       regulators to develop uniform policy changes for      “phishing” scams.*
       CRA. A challenge facing the FDIC and other reg-
       ulators is the protection of consumer interests       Our Office of Investigations’ Electronic Crimes
       while minimizing regulatory burden.                   Unit has been involved in investigating e-mail

       Another area of current emphasis is financial lit-
       eracy, aimed specifically at low- and moderate-       * Phishing scams use e-mails and Web sites to fool recipi-
       income people who may not have had banking              ents into revealing financial data, such as credit-card and
       relationships. The Corporation’s “Money Smart”          Social Security numbers.

14 SEMIANNUAL REPORT TO THE CONGRESS
“phishing” identity theft schemes that have used       tial for efficiently achieving the FDIC’s program
the FDIC’s name in an attempt to obtain per-           goals and objectives.
sonal data from unsuspecting consumers who
receive the e-mails. Our investigations have also      Also, the Administration has outlined manage-
uncovered multiple schemes to defraud deposi-          ment initiatives for departments and major agen-
tors by offering them misleading rates of return       cies in the President’s Management Agenda
on deposits. These abuses are often effected           (PMA). These initiatives are (1) strategic man-
through the misuse of the FDIC’s name, logo,           agement of human capital, (2) competitive
abbreviation, or other indicators suggesting that      sourcing, (3) improved financial management,
the products are fully insured deposits. Such mis-     (4) expanded electronic government, and
representations induce the targets of schemes to       (5) budget and performance integration.
invest on the strength of FDIC insurance while         Although the FDIC is not subject to the PMA,
misleading them as to the true nature of the           it has given priority attention to continuing
investments being offered.                             efforts to improve operational efficiency and
                                                       effectiveness, consistent with the PMA. The ini-
Our experience with such cases prompted us on          tiatives taken and opportunities for improve-
March 4, 2003, to submit to the House Financial        ment are discussed below along with other issues
Services Committee Chairman, Michael Oxley, a          that pose significant elements of risk to attaining
legislative proposal to prevent misuse of the Cor-     the FDIC’s program goals and objectives.
poration’s guarantee of insurance. This proposal
was incorporated in H.R. 1375: Financial Services
Regulatory Relief Act of 2003. On March 24, 2004,      Management of Human Capital
H.R. 1375 was passed by the House of Represen-
tatives and referred to the U.S. Senate. Section       The FDIC, like other organizations, continues to
615 of H.R. 1375, as we suggested, would provide       be affected by changing technology, market con-
the FDIC with enforcement tools to limit mis-          ditions, initiatives designed to improve its busi-
representations regarding FDIC deposit insur-          ness processes, an aging workforce, and the
ance coverage. We appreciate past Congressional        unknown. Such events impact needed staffing
support of this measure and encourage contin-          levels and required skills going forward. Since
ued consideration of such a proposal.                  2002, the FDIC has been working to create a
                                                       flexible permanent workforce that is poised to
The OIG has undertaken an audit of predatory           respond to sudden changes in the financial sec-
lending, which is now in process. Our objective is     tor. FDIC executives announced workforce plan-
to determine whether DSC has established and           ning initiatives providing for human resources
implemented an adequate program for identify-          flexibilities, the establishment of a Corporate
ing, assessing, and addressing the risks posed to      Employee Program, a Buyout Program, and
institutions and consumers from predatory lend-        reductions-in-force. Designing, implementing,
ing practices. We will issue our results in our next   and maintaining effective human capital strate-
semiannual report.                                     gies—including developing a coherent human
                                                       capital blueprint that comprehensively describes
                                                       the FDIC’s human capital framework and estab-
6. Corporate Governance                                lishes a process for agency leaders to systemati-
                                                       cally monitor the alignment and success of
   in the FDIC                                         human resources-related initiatives—are critical
Corporate governance within the FDIC is the            priorities and must continue to be the focus of
responsibility of the Board of Directors, officers,    centralized, sustained corporate attention. The
and operating managers in fulfilling the Corpo-        FDIC’s training and development function,
ration’s broad mission functions. It also provides     known as the FDIC Corporate University, will be
the structure for setting goals and objectives, the    a key ingredient in the successful implementa-
means to attaining those goals and objectives,         tion of the FDIC’s Corporate Employee Program
and ways of monitoring performance. Manage-            and other corporate efforts to address skill and
ment of the FDIC’s corporate resources is essen-       competency requirements. Workforce manage-

                                                                          Management and Performance Challenges 15
       ment is a matter for continued monitoring in the      DSC will need to ensure that its workforce plan-
       Corporation’s 2004 annual report.                     ning strategy and initiatives fit into the FDIC’s
                                                             overall corporate workforce plan. In this regard,
       DSC Workforce Planning                                the FDIC’s Division of Administration (DOA)
       As workload demands change and downsizing             plans to issue guidance that FDIC divisions and
       occurs at the FDIC, the Corporation has been          offices can use to facilitate workforce planning
       developing a human capital framework to help          efforts.
       ensure the readiness of its staff to carry out the
       Corporation’s mission, recognizing the need to
       engage in effective workforce planning.               Competitive Sourcing
       During the reporting period, we reviewed such         The FDIC recently awarded long-term contracts
       efforts related to DSC because it accounts for        to consolidate outsourced information technol-
       more than one-half of all FDIC employees and          ogy activities. While these contracts permitted
       because it is a primary business line responsible     the FDIC to solicit among well-qualified sources
       for ensuring the safety and soundness of insured      under task orders, the FDIC’s ability to compete
       financial institutions and for protecting con-        was generally limited to a small number of firms.
       sumers’ rights.                                       Attaining the desired services at competitive
                                                             prices presented a significant challenge for the
       We assessed DSC’s efforts to: (1) determine crit-     FDIC.
       ical skills and competencies needed to achieve
       current and future corporate goals and objec-         We issued the results of a preaward audit that we
       tives, (2) identify gaps in skills and competencies   conducted related to the information technology
       that need to be addressed, and (3) develop strate-    contracts. We found no significant exceptions in
       gies to address current gaps in skills and com-       doing our work.
       petencies and future workforce needs. We used
       Office of Personnel Management (OPM) and
       GAO guidance to evaluate DSC’s workforce              Improved Financial
       planning efforts.                                     Management
       We determined that DSC is engaging in work-           The FDIC plans to field a new financial manage-
       force planning activities consistent with OPM         ment system during 2005 that will consolidate
       and GAO guidance. Nevertheless, more work is          the operations of multiple systems. Named the
       needed to finalize and communicate DSC’s              New Financial Environment (NFE), this initia-
       workforce planning efforts to DSC employees           tive will modernize the FDIC’s financial re-
       and others. Considering the efforts that DSC had      porting capabilities. Implementing NFE and
       underway, and expanding on those, we made five        interfacing other systems with NFE has and will
       recommendations related to the following: incor-      continue to require significant efforts and poses
       porating the Corporate Employee Program into          major challenges.
       the staffing strategy and communicating that
       strategy; validating the model DSC is developing      OIG Reviews of NFE
       and determining how it will be used; evaluating       In 2001, the FDIC’s Board of Directors approved
       the benefits of a skills assessment to identify       the business case for NFE with a total estimated
       competency gaps; determining whether DSC’s            project cost of $40.7 million. In June 2004, the
       existing training system can be used as a corpo-      Board approved the business case to re-baseline
       rate repository; and defining how existing mech-      the NFE project with additional funding of
       anisms interrelate and how the success of each        $18 million. Division of Finance management
       will be monitored and measured. DSC generally         expects to implement the NFE core financial sys-
       concurred with our five report recommendations        tem by June 30, 2005, that is, functionality for
       to enhance its on-going efforts.                      accounts payable, accounts receivable, general
                                                             ledger, budget, procurement, treasury manage-
       While workforce planning is a fundamental com-        ment, projects, asset management, and reporting
       ponent of DSC’s overall management process,           and portions of the cost management modules.

16 SEMIANNUAL REPORT TO THE CONGRESS
We conducted an audit of management controls          tion. We will also provide audit coverage of NFE
over the re-baselined NFE project and issued the      implementation after the system is deployed.
results of that effort during the reporting period.
We reported that the FDIC has established and
implemented adequate management controls for          E-Government
the re-baselined project.                             The FDIC’s E-government strategy is a compo-
                                                      nent of the enterprise architecture which focuses
However, project planning for NFE system
                                                      on service delivery for the external customers of
implementation did not adequately cover post-
                                                      the FDIC. The FDIC issued Version One of its
installation activities as recommended by federal
                                                      E-government Strategy in November 2002 and is
guidance. Specifically, the transition and data
                                                      in the process of establishing a task force to
conversion plans and design documents do not
                                                      update the strategy. The FDIC has initiated a
provide policies and procedures or assignments
                                                      number of projects that will enable the FDIC to
of responsibility and accountability to ensure
                                                      improve internal operations, communications,
that post-installation tasks such as verifying data
                                                      and service to members of the public, businesses,
integrity, handling final disposition of the legacy
                                                      and other government offices. The projects
system data, and monitoring of the first report-
                                                      include: Call Report Modernization, Virtual
ing cycle are adequately performed. The lack of
planning for these activities limits the FDIC’s       Supervisory Information on the Net, Asset Ser-
preparedness for resolving problems and abnor-        vicing Technology Enhancement Project, NFE,
malities that could affect reliability and avail-     Corporate Human Resources Information Sys-
ability of the operational NFE system.                tem, and FDIConnect. The risks of not imple-
                                                      menting E-government principles are that the
We recommended that the FDIC develop a plan           FDIC will not efficiently communicate and serve
or modify existing plans for NFE system imple-        its internal and external customers.
mentation to address post-installation tasks and
related controls, including policies, procedures,     The OIG is currently auditing the Corporation’s
and assignments of responsibility and accounta-       E-government strategy and will issue the results
bility. FDIC management agreed with the rec-          of that work in the next semiannual reporting
ommendation and will expand NFE project               period. This work is examining whether the
planning to further address post-installation         FDIC adequately implemented E-government
tasks and related controls.                           principles in its operations and information
                                                      exchanges with FDIC-insured financial institu-
We had two other audits of NFE ongoing during         tions and complied with applicable portions of
the reporting period. In one, we examined NFE         the Government Paperwork Elimination Act.
testing. We issued a draft report on that assign-
ment and will issue final results in our upcoming
semiannual report. As for the second audit, we        Risk Management
were seeking to review NFE system and data con-       and Assessment of
version activities. Our audit objective was to
determine whether systems and data conversion         Corporate Performance
plans and activities are adequate to minimize         Within the business community, there is a
the risk of errors and omissions during NFE           heightened awareness of the need for a robust
implementation. However, we terminated that           risk management program. Because of past cor-
assignment because we were not able to collect        porate governance breakdowns at some major
sufficient, competent, and relevant evidence in a     corporations, organizations are seeking a “port-
timely manner as required by generally accepted       folio” view of risks and the launch of proactive
government auditing standards to provide a rea-       measures against threats that could disrupt the
sonable basis for audit conclusions related to our    achievement of strategic goals and objectives. To
objective. We advised management of some of           address these needs, a best practice has devel-
the concerns we identified and will issue a report    oped—enterprise risk management (ERM).
on work performed up to the time of termina-          ERM is a process designed to: identify potential

                                                                        Management and Performance Challenges 17
       events that may affect the entity, manage identi-    ing, the balanced scorecard performance initia-
       fied risks, and provide reasonable assurance         tive, and the impact of the December 2004 revi-
       regarding how identified risks will affect the       sion to the Office of Management and Budget
       achievement of entity objectives. In April 2004,     (OMB) Circular A-123, “Management’s Respon-
       the FDIC’s Chief Financial Officer changed the       sibility for Internal Control.”
       name of the Office of Internal Control Manage-
       ment to the Office of Enterprise Risk Manage-        Review of 2004 Draft Annual Report and
       ment (OERM) and the OERM has begun                   Draft 2005 FDIC Performance Plan
       developing an ERM program for the FDIC. The          We provided advisory comments on these docu-
       migration from internal control to enterprise        ments to the Division of Finance. Our sugges-
       risk management perspectives and activities          tions related to the performance plan included:
       presents challenges and opportunities for the        (1) improving the plan’s linkage to the 2005 cor-
       FDIC.                                                porate performance objectives, (2) considering
                                                            performance goals for key resource management
       In the spirit of the Government Performance and      activities, (3) clarifying certain performance tar-
       Results Act of 1993 (GPRA), the FDIC prepares a
                                                            gets, and (4) improving internal control and
       strategic plan that outlines its mission, vision,
                                                            information security program discussions.
       and strategic goals and objectives within the con-
       text of its three major business lines; an annual
       performance plan that translates the vision and      Issuance of Informational Analysis of
       goals of the strategic plan into measurable          Linkage Between the Corporation’s
       annual goals, targets, and indicators; and an        Performance Measurement Processes
       annual performance report that compares actual       We provided a document to the Division of
       results against planned goals. In addition, the      Finance for its use in corporate performance
       FDIC Chairman develops a supplemental set of         management activities. Our paper includes a
       “stretch” annual corporate performance objec-        crosswalk analysis and observations of the
       tives based on three strategic areas of focus that   FDIC’s Corporate Performance Objectives and
       cut across the Corporation’s three business lines:   the separate GPRA Plan. It builds on past OIG
       Sound Policy, Stability, and Stewardship. The        advisory comments and may be useful as a basis
       Division of Finance monitors the Corporation’s       for additional analysis aimed at achieving a more
       success in meeting both sets of performance          clearly integrated performance measurement
       objectives and develops quarterly reports on the     structure.
       FDIC’s progress. Executive and managerial pay
       are linked to performance on both the Chair-
       man’s objectives and those in the annual per-        Security of
       formance plan.                                       Critical Infrastructure
       The Corporation is continually focused on estab-     To effectively protect critical infrastructure, the
       lishing and meeting annual performance goals         FDIC’s challenge in this area is to implement
       that are outcome-oriented, linking performance       measures to mitigate risks, plan for and manage
       goals and budgetary resources, implementing          emergencies through effective contingency and
       processes to verify and validate reported per-       continuity planning, coordinate protective meas-
       formance data, and addressing cross-cutting          ures with other agencies, determine resource and
       issues and programs that affect other federal        organization requirements, and engage in educa-
       financial institution regulatory agencies.           tion and awareness activities. The FDIC will need
                                                            to continue to work with the Department of
       OIG efforts addressing risk management and           Homeland Security and the Finance and Banking
       corporate performance assessment during the          Information Infrastructure Committee, created
       reporting period included the following.             by Executive Order 23231 and chaired by the De-
                                                            partment of the Treasury, on efforts to improve
       Enterprise Risk Management Activity                  security of the critical infrastructure of the
       We met with OERM to share views and coordi-          nation’s financial system. To address this risk, the
       nate issues regarding consolidated annual report-    FDIC is sponsoring outreach conferences for the

18 SEMIANNUAL REPORT TO THE CONGRESS
Financial and Banking Information Infrastruc-          resources to perform those tasks. The FDIC has
ture Committee and Financial Services Sector           engaged in several multi-million dollar projects,
Coordinating Council through 2005, which will          such as the NFE project discussed earlier, Central
address protecting the financial sector.               Data Repository, and Virginia Square Phase II
                                                       Construction. Without effective project manage-
On December 17, 2003, the President signed             ment, the FDIC runs the risk that corporate
Homeland Security Presidential Directive               requirements and user needs may not be met in a
(HSPD)–7, Critical Infrastructure Identification,      timely, cost-effective manner. Particularly in light
Prioritization and Protection. HSPD–7 estab-           of downsizing, the FDIC needs to be vigilant in
lished a national policy for federal departments       overseeing major projects and related costs.
and agencies to identify and prioritize United         Project management is a matter for continued
States critical infrastructure and key resources       monitoring in the Corporation’s 2004 annual
and to protect them from terrorist acts. On            report.
June 17, 2004, OMB issued Memorandum
M-04-15, Development of the HSPD-7 Critical            In September 2002, the FDIC established the
Infrastructure Protection Plans to Protect Federal     Capital Investment Review Committee (CIRC) as
Critical Infrastructures and Key Resources. The        the control framework for determining whether
memorandum provides guidance regarding the             a proposed investment is appropriate for the
format and content of critical infrastructure pro-     FDIC Board of Directors’ consideration, oversee-
tection plans that federal agencies are required to    ing approved investments throughout their life
submit to the OMB. Although the FDIC has               cycle, and providing quarterly capital investment
determined that it does not maintain critical          reports to the Board. The CIRC generally moni-
infrastructure or key resources as intended by         tors projects valued at more than $3 million. The
HSPD–7, the FDIC is required to report to OMB          FDIC also developed the Chief Information Offi-
on its ability to ensure the continuity of its busi-   cer’s Council to recommend and oversee tech-
ness operations in the event of a physical or cyber    nology strategies, priorities, and progress. The
attack. The FDIC provided its Critical Infrastruc-     work of the Council encompasses the entire
ture Protection plan to OMB in August 2004.            portfolio of technology projects, including those
However, the FDIC will need to ensure that the         below the threshold addressed by the CIRC.
Plan is kept current and up-to-date, particularly
in light of transformation activities in DIT.          Beginning with the 2003 budget, the FDIC began
                                                       budgeting and tracking capital investment
With respect to information technology contin-         expenses as a separate component of the budget
gency planning, the FDIC has continued capabil-        to enhance management’s ability to focus on
ity to recover its mainframe and server platforms      such projects. Project funds established within
necessary to restore operations in the event of a      the investment budget are to be available for the
disaster. However, testing for data restoration        life of the project rather than for the fiscal year.
needs to be done continually. The FDIC’s Busi-         Final responsibility for approving the initial cre-
ness Continuity Plan (BCP) addresses critical          ation or modification of a project’s capital invest-
business functions in key divisions and offices,       ment budget rests with the FDIC’s Board of
and the Corporation has completed an updated           Directors. In addition, DIT has recently adopted
business impact analysis and revised the plan          the Rational Unified Process system development
accordingly. Continued testing and updates of          life cycle model and has established a Project
the plan must be part of a sound BCP process.          Management Office. Both of these initiatives
The OIG will be conducting work to monitor             should result in additional oversight and control
business continuity efforts going forward.             mechanisms for corporate projects.

                                                       The FDIC’s System Development Life Cycle
Management of Major Projects                           (SDLC) methodology and the related control
Project management involves defining, planning,        framework can benefit from implementing iden-
scheduling, and controlling the tasks that must        tified best practices. The FDIC has selected a risk-
be completed to reach a goal and allocating            based SDLC methodology and developed a

                                                                          Management and Performance Challenges 19
       statement of work to implement the new meth-         service agreements that offer the best value to the
       odology. Also, issuing detailed information tech-    Corporation. This evaluation led us to conclude
       nology enterprise architecture guidance can help     that the Corporation should reconsider existing
       implement higher-level policy and general guid-      procurement options for local telecommunica-
       ance. As these initiatives are addressed, the FDIC   tions service in its headquarters, regional, and
       should promptly implement the necessary con-         field locations. The FDIC had monthly service
       trol framework. Doing so would: provide the          agreements with various regional telecommuni-
       Corporation with greater assurance that major        cations carriers nationwide that we felt should be
       projects meet cost, schedule, and quality goals;     competed and reviewed for potential consolida-
       the development process continually improves; all    tion. Market surveillance needed to be updated
       system development projects are consistent with      to fully understand procurement options avail-
       the FDIC enterprise architecture; and effective      able to the FDIC. We recommended that the
       security controls exist in all completed systems.    Corporation implement a strategy for its local
                                                            telecommunications services.

       Cost Containment and                                 DIT and DOA were working on Statements of
       Procurement Integrity                                Work for the regional offices and Virginia Square
                                                            to compete contract award for local calling serv-
       As steward for the BIF, SAIF, and the Federal        ice. In addition, DIT had begun discussions with
       Savings and Loan Insurance Corporation Reso-         the General Services Administration regarding
       lution Fund, the FDIC strives to identify and        contracting options and telecommunication pro-
       implement measures to contain and reduce costs,      grams available to the FDIC. DIT personnel indi-
       either through more careful spending or by           cated that the FDIC could reduce monthly local
       assessing and making changes in business             telecommunications costs by about 10 to 25 per-
       processes to increase efficiency. A key challenge    cent through long-term service agreements, in-
       to containing costs relates to the contracting       creased competition, and alternative programs
       area. To assist the Corporation in accomplishing     offered by the General Services Administration.
       its mission, contractors provide services in such
       areas as information technology, legal matters,      Based on an annual budget of $1.3 million for
       loan servicing, and asset management. To con-        local calling plans, we determined that the FDIC
       tain costs, the FDIC must ensure that its acquisi-   could save about $130,000 to $325,000 per year
       tion framework—its policies, procedures, and         by implementing a strategy. The FDIC may also
       internal controls—is marked by sound planning;       realize process efficiencies by consolidating local
       consistent use of competition; fairness; well-       telecommunications billings. The report identi-
       structured contracts designed to result in cost-     fied funds put to better use of $390,000 to reflect
       effective, quality performance from contractors;     recurring savings over a 3-year period (i.e.,
       and vigilant oversight management to ensure the      $130,000 x 3). FDIC management agreed to con-
       receipt of goods and services at fair and reason-    duct an evaluation but felt that projecting this
       able prices.                                         amount was premature and could neither agree
                                                            nor disagree with the OIG estimate at the time
       OIG Work Focuses on Cost Containment                 we issued the report.
       and Procurement Activities
       Much of the OIG’s audit and evaluation work          Price Reduction on Laptop Computers
       over the reporting period addressed procure-         We conducted audit work related to the FDIC’s
       ment issues, all in the interest of enhancing the    2003 purchase of 3,769 laptop computers. The
       effectiveness of contracting and reducing costs of   objective of the audit was to determine whether
       contracted goods and services. Examples of work      the FDIC received the appropriate price on the
       in this area follow.                                 computers. We concluded that the FDIC pur-
                                                            chased laptop computers through a contractor
       Local Telecommunications                             based on a price quote that did not reflect cur-
       We conducted an evaluation to assess whether         rent prices for the IBM computers that were pur-
       the FDIC is procuring local telecommunications       chased. As a result, the FDIC was overcharged by

20 SEMIANNUAL REPORT TO THE CONGRESS
$1,967,863. We recommended that DOA pursue             at the FDIC, we conducted an evaluation. Our
recovery of the $1,967,863 from the contractor.        sample included 34 contracts, valued at about
                                                       $41 million.
The Corporation planned corrective action that
is responsive to our recommendation. We con-           Overall, we concluded that the controls over the
sider the $1,967,863 as questioned costs.              FDIC’s use of consultants could be improved. Our
                                                       report contains two recommendations for actions
Procurement of Administrative Goods                    to strengthen the administration of specific con-
and Services                                           tracts, and one recommendation to generally
From May 1, 2003 through April 30, 2004, DOA           strengthen the controls over the FDIC’s use of
purchases of administrative goods and services         consultants. We again highlighted a lack of con-
totaled about $101 million–$98 million for con-        tract file documentation as a matter for further
tracts and $3 million for procurement credit           management attention. The Corporation was
cards. We conducted an audit to determine              responsive to our recommendations.
whether the FDIC’s procurement of administra-
tive goods and services is economical and efficient.   Other work related to this challenge during the
                                                       reporting period included three post-award con-
We reported that DOA had not developed a for-          tract billing audits and one pre-award contract
mal strategic approach for its procurements and,       audit. The billing reviews identified $354,153 in
as a result, may not be taking full advantage of       questioned costs and $361,430 in funds put to
opportunities to reduce costs and maximize pro-        better use. Management is currently addressing
curement efficiencies. Based on a savings rate         the findings in those audits.
comparable to that of the Department of Veter-
ans Affairs, we estimated that the FDIC could
save about $8.8 million (funds put to better use)      7. Resolution and
over the next 3 years by developing a strategic ap-
proach, including performing spend analysis, for
                                                          Receivership Activities
the procurement of such goods and services. In         One of the FDIC’s responsibilities is planning
addition, DOA had not sufficiently established         and efficiently handling the resolution of failing
goals and performance measures for the pro-            FDIC-insured institutions and providing
curement process. Therefore, DOA could not             prompt, responsive, and efficient administration
adequately evaluate the overall efficiency of its      of failed financial institutions. These activities
procurements or the impact of its procurement          help maintain confidence and stability in our
initiatives.                                           financial system.

We made two recommendations to address these           The Division of Resolutions and Receiverships
issues and the Corporation generally agreed with       (DRR) has outlined primary goals for three func-
them.                                                  tional areas (listed below) that are relevant to the
                                                       three major phases of its work: Pre-Closing,
The FDIC’s Use of Consultants                          Closing, and Post-Closing of failed institutions.
Consulting contracts can be a useful and effective     Each is accompanied by significant challenges.
tool for the Corporation, but they present certain
risks. Consulting contracts are considered sensi-      a. Deposit Insurance. The FDIC must provide
tive in nature and can potentially influence the          customers of failed financial institutions with
authority, accountability, and responsibilities of        timely access to their insured funds and
FDIC officials. From January 1996 through                 financial services. A significant challenge in
March 2004, the FDIC awarded 213 consulting               this area is to ensure that FDIC deposit insur-
contracts valued at $123 million, which repre-            ance claims and payment processes are pre-
sents about 3 percent of the number of contracts          pared to handle large institution failures.
awarded and about 5 percent of the value of all
FDIC contracts awarded. To determine the use           b. Resolutions. As the FDIC seeks to resolve fail-
of, and benefits derived from, consulting services        ing institutions in the least costly manner, its

                                                                          Management and Performance Challenges 21
          challenges include improving the efficiency of     assets is servicing loans that are retained by the
          contingency planning for institution failures      FDIC for management and disposition. As of
          and ensuring effective internal FDIC commu-        August 31, 2004, the FDIC had an inventory of
          nication and coordination as well as commu-        273 receivership loans with a total book value of
          nication with the other primary federal            $119 million.
          regulators.
                                                             We conducted an audit to determine whether
       c. Receivership Management. Related chal-             DRR is adequately and efficiently managing and
          lenges include ensuring the efficiency and         processing internally serviced loans. We found
          effectiveness of the receivership termination      that DRR has an adequate management control
          process and claims processing, continually         process to ensure that funds from internally serv-
          assessing recovery strategies and investigative    iced loans and related transactions are properly
          activities, collecting restitution orders, and     reported and credited to the FDIC. However, in
          charging receiverships for services performed      the interest of ensuring more efficient and effec-
          under the Receivership Management                  tive loan servicing, we recommended that the
          Program.                                           Director, DRR, require a prompt supervisory
                                                             review for internally serviced receivership loans
       In addition to the challenges inherent in the         assigned to account officers who are detailed or
       three major phases of DRR work, DRR also faces        otherwise unable to manage their loan portfo-
       challenges from a significant downsizing of its       lios. FDIC management generally agreed with
       current staffing levels. Notwithstanding corpo-       the recommendation and has taken or planned
       rate restructuring, adequate resources are needed     actions to address it.
       for DRR to perform its mission. Further, DRR is
       pursuing an information system enhancement            Receivership Dividend Payments
       project, the Asset Servicing Technology Enhance-      The receivership process includes liquidating
       ment Project (ASTEP), which is intended to cre-       failed institution assets and distributing any
       ate an integrated solution to meet the FDIC’s         proceeds of the liquidation, in the form of
       current and future asset servicing responsibilities   receivership dividends, to the FDIC, uninsured
       based on industry standards, best practices, and      depositors, and general creditors. We performed
       adaptable technology. Successfully implementing       an audit to determine whether receivership divi-
       ASTEP is an important aspect of DRR mission           dends were properly authorized and adequately
       achievement.                                          supported.

                                                             We reported that DRR has established and
       OIG Work Addressing                                   implemented adequate controls over the re-
       Resolution and                                        ceivership dividend payment process. However,
                                                             we also found that from January 1, 2003 through
       Receivership Issues                                   December 31, 2004, the FDIC issued 18,339
       Three of our audit reports this reporting period      paper checks to receivership dividend recipients.
       addressed resolution and receivership activities,     In our view, the FDIC could achieve savings
       as discussed below.                                   associated with efficiency gains by moving to an
                                                             electronic payment method.
       Internal Loan Servicing
       When an FDIC-insured institution fails or is          We therefore recommended that DRR assess the
       closed by a federal or state regulatory agency, the   feasibility of making electronic payments to recip-
       FDIC is appointed as receiver. The Corporation        ients of receivership dividends and take steps to
       manages and sells the receivership’s assets           request recipient bank routing information for
       through a variety of strategies and identifies and    future electronic receivership dividend payments.
       collects monies due to the receivership. One          FDIC management agreed with the recommenda-
       aspect of DRR’s management of receivership            tions and has planned actions to address them.


22 SEMIANNUAL REPORT TO THE CONGRESS
Asset Write-Offs                                      also found, however, eight write-off cases totaling
When reasonable attempts to sell or recover           $31 million in debt for which DRR had not issued
assets have been unsuccessful and additional          Forms 1099-C in compliance with FDIC and
expenditure of FDIC resources is unjustified, the     Internal Revenue Service policies and directives.
FDIC may write off the assets. In processing          As a result, the government may have been
write-off transactions, the FDIC is required to       deprived of significant tax revenue.
report a canceled debt of $600 or more on
Form 1099-C, Cancellation of Debt, to the In-         We recommended that DRR improve procedures
ternal Revenue Service.                               related to reporting discharges of debt, issue
                                                      Forms 1099-C for the write-off cases identified in
We conducted an audit to determine whether            the report, and review all write-off cases for 2003
DRR’s decisions for writing off assets from failed    and 2004 to ascertain whether reporting of addi-
financial insured depository institutions were        tional discharges of debt is warranted. DRR con-
properly justified and adequately supported. Our      curred with two of our recommendations and
audit scope included 435 write-off cases, valued      partially concurred with the third recommenda-
at $292 million. We reviewed a sample of              tion. Regarding the partial concurrence, DRR
24 write-off cases valued at about $95 million.       agreed to issue Forms 1099-C for the seven write-
                                                      off cases that involved loans to foreign debtors
We reported that the FDIC has established a           and loans discharged in corporate bankruptcies.
sound internal control process and procedures for     DRR initially did not agree to issue the forms for
writing off receivership assets in conformity with    the remaining case because the taxable event
DRR delegations of authority. For the 24 write-off    occurred before bank failure, and DRR stated that
cases we sampled, the decisions to write off          it is not its policy to issue a Form 1099-C in this
receivership assets from failed depository institu-   circumstance. It was later determined that DRR
tions were justified and adequately supported. We     should issue the forms.




                                                                         Management and Performance Challenges 23
                                                     Investigations:
                                                     Making an Impact

The Office of Investigations (OI) is responsible     Currently, the majority of OI’s caseload is com-
for carrying out the investigative mission of the    prised of investigations involving major financial
OIG. Agents in Washington, D.C.; Atlanta;            institution fraud. OI’s work in this area targets
Dallas; and Chicago conduct investigations           schemes that result in significant losses or vul-
of alleged criminal or otherwise prohibited ac-      nerabilities for the institution(s), and/or involves
tivities that may harm or threaten to harm the       institution officers or insiders, multiple subjects
operations or integrity of the FDIC and its pro-     and institutions, obstruction of bank exam-
grams. OI also operates an Electronic Crimes         inations; and/or misrepresentation of FDIC
Unit (ECU) and laboratory in Washington,             insurance or affiliation. It also includes investiga-
D.C. The ECU is responsible for conducting           tions of fraud resulting in significant monetary
computer-related investigations impacting the        losses and institution failures. (See highlighted
FDIC, including employee cases involving com-        write-up on page 32.)
puter abuse, and providing computer forensic
support to OI investigations nationwide. OI also
manages the OIG Hotline for employees, con-
tractors, and others to report allegations of                           Investigative Statistics
fraud, waste, abuse, and mismanagement via a                        October 1, 2004—March 31, 2005
toll-free number or e-mail.
                                                       Judicial Actions:
                                                         Indictments/Informations . . . . . . . . . . . . . . . . . . 13
OI concentrates its investigative efforts on those       Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
cases of most significance or potential impact to      OIG Investigations Resulted in:
the FDIC and its programs. OI’s goal, in part, is        Fines of . . . . . . . . . . . . . . . . . . . . . . . . . . . . $32,500
to bring a halt to the fraudulent conduct under          Restitution of . . . . . . . . . . . . . . . . . . . . . $4,674,998
investigation, protect the FDIC and other victims        Other Monetary Recoveries of . . . . . $19,420,848
from further harm, and assist the FDIC in recov-         Total . . . . . . . . . . . . . . . . . . . . . . . . . . . $24,128,346
ery of its losses. Another consideration in dedi-      Cases Referred to the Department of
cating resources to these cases is the need to         Justice (U.S. Attorney) . . . . . . . . . . . . . . . . . . . . . . 13
pursue appropriate criminal penalties not only         Referrals to FDIC Management . . . . . . . . . . . . . . . . 3
to punish the offender but to deter others from
participating in similar crimes.                       OIG Cases Conducted Jointly with
                                                       Other Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65


24 SEMIANNUAL REPORT TO THE CONGRESS
In addition to pursuing financial institution-
                                                        Figure 1: Office of Investigations Case
related cases, the OIG commits resources to
                                                                  Distribution (as of March 31, 2005)
investigations that target fraud by FDIC debtors
seeking to conceal their assets from the FDIC.
These cases made up 20 percent of our caseload
as of March 31, 2005. These cases are of great
significance to the FDIC, which was owed more                                        Restitution and
                                                                                       Other Debt
than $1.7 billion in criminal restitution as of                                            20%
September 30, 2004. In most instances, the indi-
viduals subject to these restitution orders do not                                                 Other
have the means to pay. The focus of OIG investi-             Financial Institution                  5%
                                                                 Operations
gations in this area is on those individuals who                    68%
                                                                                                              Employee
                                                                                                              Activities
do have the means to pay, but hide their assets                                                                  4%
and/or lie about their ability to pay. OI works                                                               Asset
closely with the Division of Resolutions and                                                               Management
                                                                                                            and Sales
Receiverships (DRR) and the Legal Division in                                                                  3%
aggressively pursuing investigations of these
individuals.

Although currently only about 4 percent of our
caseload, the OIG must always be prepared to
commit resources to investigations of criminal or      tion of the U.S. Department of Justice and from
serious misconduct on the part of FDIC employ-         the State of Missouri.
ees. These are among the most sensitive of OIG
cases and are critical to ensure the integrity of      Support and cooperation among other law
and public confidence in FDIC operations.              enforcement agencies is also a key ingredient for
Attention during the reporting period focused          success in the investigative community. We fre-
on several employee cases related to inappro-          quently “partner” with the Federal Bureau of
priate use of computers.                               Investigation (FBI), the Internal Revenue Service
                                                       Criminal Investigation Division, and other law
                                                       enforcement agencies in conducting investiga-
                                                       tions of joint interest.
Joint Efforts
The OIG works closely with U.S. Attorneys’ Of-         Also vital to our success is our partnership with
fices throughout the country in attempting to          FDIC program offices. We coordinate closely
                                                       with the FDIC’s Division of Supervision and
bring to justice individuals who have defrauded
                                                       Consumer Protection (DSC) in investigating
the FDIC. The prosecutorial skills and out-
                                                       fraud at financial institutions, and with DRR and
standing direction provided by Assistant
                                                       the Legal Division in investigations involving
U.S. Attorneys with whom we work are critical
                                                       failed institutions and fraud by FDIC debtors.
to our success. The results we are reporting for       Our ECU coordinates closely with the Division
the last 6 months reflect the efforts of U.S. Attor-   of Information Technology (DIT) in carrying
neys’ Offices in the Southern District of Florida,     out its mission. The successes highlighted for the
District of Connecticut, District of Minnesota,        period would not have been possible without the
Central District of Illinois, Northern District of     collaboration of these offices.
Illinois, Southern District of Illinois, Southern
District of Iowa, Eastern District of Texas, South-    In addition to carrying out its direct investigative
ern District of New York, District of New Hamp-        responsibilities, the OIG is committed to provid-
shire, and the Northern District of Texas. In          ing training and sharing information with FDIC
addition to local U.S. Attorneys’ Offices, the OIG     components and other regulators based on “les-
worked with Trial Attorneys from the Fraud Sec-        sons learned” regarding red flags and fraud

                                                                                     Investigations: Making an Impact 25
       schemes identified through our investigations.        placing a lien on his 17,000-square-foot house,
       OI agents provide training and frequently give        known as Heritage Valley Farms. The govern-
       presentations to FDIC staff during regional and       ment released this lien prior to trial in order for
       field meetings. OI is also called upon by the Fed-    Community Bank to obtain a clear title and
       eral Financial Institutions Examination Council,      foreclose on the property.
       state banking regulatory agencies, and law en-
       forcement agencies to present case studies.         Community Bank’s former vice president of con-
                                                           struction and maintenance was also found guilty
                                                           on 13 counts of conspiracy, bank fraud, and
       Results                                             causing false entries in bank records. Addition-
                                                                             ally, the owner of J&M Materi-
       Over the last 6 months OI                                             als, a contractor to Community
       opened 24 new cases and closed                                        Bank, was found guilty of seven
       20 cases, leaving 115 cases           “Corporate executives
                                                                             counts of conspiracy, bank
       underway at the end of the            are subject to the same         fraud, and causing false entries
       period. Our work during the                                           in bank records.
       period led to indictments or
                                             laws as others, and
       criminal charges against 13           this crime was simply              By way of explanation of the
       individuals and convictions of        another way of                     three individuals’ roles in the
       8 defendants. Criminal charges                                           fraud, the former Community
       remained pending against 31           ‘robbing a bank’ and               Bank vice president of con-
       individuals as of the end of the      will be met with                   struction acted as the general
       reporting period. Fines, restitu-                                        contractor and was responsible
       tions, and recoveries resulting
                                             severe consequences of             for receiving and approving
       from our cases totaled almost         federal prison.                    construction invoices on Com-
       $24,128,346.                          Today’s victory sends              munity Bank projects.
                                                                                The owner of J&M Materials
       The following are highlights of       the message that we                provided construction services
       some of the results from our          will invest the time,              on commercial and residential
       investigative activity over the                                          construction projects, including
       last 6 months:
                                             money and resources                Community Bank, and the for-
                                             it takes to pursue                 mer chairman and CEO’s per-
                                                                                sonal projects. The indictment
       Fraud Arising at or                   complex white collar               alleged that the defendants con-
       Affecting Financial                   fraud.”                            spired and used $2.15 million in
                                                                                bank funds for construction
       Institutions                                        U.S. Attorney        work on the former CEO’s per-
                                                        Alice H. Martin,        sonal projects, including the
       Former Community Bank                                                    construction of his residence,
                                                          commenting on
       Executives, Excavating                                                   Heritage Valley Farms. The
                                                  Community Bank verdict
       Company Owner Convicted                                                  indictment further alleged that
       of Defrauding                                                            the former CEO obtained more
       Community Bank                                         than $5 million in bank loans to build the house
       After a 6-week jury trial in the Northern District     but used more than $1.34 million of those funds
       of Alabama, Birmingham, the former chairman            for other purposes.
       and chief executive officer (CEO) of Community
       Bank, Blountsville, Alabama, was found guilty on       The investigation of suspected fraud involving
       15 counts of conspiracy, bank fraud, causing false     Community Bank was conducted by agents
       entries in bank records, and filing false income       from the FDIC OIG, FBI, and Internal Revenue
       tax returns. He was found not guilty of six counts     Service Criminal Investigation Division. Pros-
       relating to a false loan application. The govern-      ecution of the case is being handled by trial
       ment had sought a civil forfeiture of $3.45 mil-       attorneys from the Department of Justice, Wash-
       lion from the former chairman and CEO by               ington, D.C.

26 SEMIANNUAL REPORT TO THE CONGRESS
                                                       Through his company, SFG, the former CEO sold
                                                       over $15 million worth of sub-prime loans to
                                                       SNB. He was found guilty of conspiring with the
                                                       defendant’s ex-husband to defraud SNB in the
                                                       purchase of these sub-prime loans.

                                                       The defendant was found guilty of conspiracy to
                                                       submit a false statement and making a material
                                                       false statement to the Office of the Comptroller
                                                       of the Currency (OCC). In December 1999, the
                                                       defendant and her ex-husband made an appli-
                                                       cation to the OCC for the purchase of Northwest
                                                       National Bank. The two failed to list substantial
Heritage Valley Farms
                                                       assets and liabilities on their application to the
                                                       OCC. The OCC relied on the fraudulent misrep-
FDIC to Receive $4.2 Million in                        resentations and approved the application.
Restitution as a Result of Federal and
State Efforts Investigating the Failure of            The former in-house counsel for SNB and SFG
Sinclair National Bank                                also played a part in deceiving OCC examiners.
At the end of the reporting period, the former        In November 2004, the former in-house counsel
CEO of Stevens Financial Group (SFG) was sen-         was sentenced both in state and federal court to
                                                      5 years’ probation and was ordered to surrender
tenced in U.S. District Court for the Western Dis-
                                                      his law license. He had previously pleaded guilty
trict of Missouri to 5 years in prison and ordered
                                                      to criminal information(s) that charged him
to pay $4.2 million in restitution to the FDIC.
                                                      with creating and backdating documents and
The federal judge also sentenced one of the for-
                                                      making false statements in order to deceive OCC
mer bank owners who was also a board member
                                                      examiners. He backdated documents that raised
(the defendant) of Sinclair National Bank (SNB),
                                                                        issues of “potential self-dealing”
Gravette, Arkansas. The defen-
                                                                        by SNB’s former chairman, who
dant, who resides in Germany,
was sentenced to 2 years’ proba-
                                        “I can tell you it was a        owned SFG before selling it in
                                                                        October 1999.
tion, fined $5,000, and was             good feeling seeing the
ordered to surrender her                former CEO’s hands              Former CEO Also
passport.                                                               Sentenced in State Court
                                      placed in cuffs. I think
                                                                        Also during the reporting
After a 2-week trial in August        it’s important to show            period, after a sentencing hear-
2004, a federal jury returned                                           ing in the Greene County Mis-
guilty verdicts against the for-      that white-collar
                                                                        souri State Court, the former
mer CEO and the defendant.            criminals are not                 CEO of SFG was sentenced to
The former CEO was a business                                           prison for 2 years on each of the
partner of the defendant and
                                      above the law.”
                                                                        five counts for which he was
her ex-husband. The two were                 Assistant Attorney         convicted on September 24,
earlier indicted based on evi-                                          2004. After a 2-week trial, he
                                          General Ron Carrier,
dence developed during our                                              was convicted on five felony
                                         commenting on sentencing
investigation into the fraud                                            counts of making false and mis-
                                              of SFG’s former CEO
scheme that led to SNB’s failure                                        leading statements to the Mis-
after only 18 months of owner-                                          souri Division of Securities. He
ship by the defendant and her ex-husband. The         was found not guilty on six counts of Missouri
defendant’s ex-husband was also indicted but          securities fraud.
died in December 2003 while awaiting trial. The
FDIC was named receiver, and SNB’s failure            By fraudulently submitting documents to the
caused a loss of approximately $4.5 million to the    State of Missouri Secretary of State’s Office, the
Bank Insurance Fund.                                  former CEO artificially inflated the true net

                                                                                  Investigations: Making an Impact 27
                                                                   President and Director of Hamilton Bancorp
                                                                   Admits Guilt in Hamilton Bank Investigation
                                                                   On February 9, 2005, the president (who was also
                                                                   a director) of Hamilton Bancorp and Hamilton
                                                                   Bank pleaded guilty to two counts of securities
                                                                   fraud before a U.S. District Court Judge in the
                                                                   Southern District of Miami. The defendant faces
                                                                   a maximum statutory term of imprisonment of
                                                                   10 years on each of these counts. He also faces a
                                                                   maximum fine of $1 million, as well as restitu-
                                                                   tion. This plea followed the president’s June 2004
                                                                   indictment.

                                                                   Also named in the 42-count indictment in June
Sinclair National Bank                                             2004 were the following: the former chairman of
                                                                   the board and CEO; and the former senior vice
                                                                   president and chief financial officer. The indict-
               worth of the company. In order to accumulate        ment charged the defendants with conspiracy,
               cash, the former CEO and defendant’s ex-            wire fraud, securities fraud, false filings with the
               husband sold “time certificates” that raised        SEC, false statements to accountants, obstruction
               approximately $100 million from investors in        of an examination of a financial institution, and
                                                                   making false statements to the OCC. The former
               Missouri. The sales of the securities were struc-
                                                                   chairman of the board and CEO was also
               tured to avoid federal securities regulations as
                                                                   charged with insider trading.
               enforced by the Securities and Exchange Com-
               mission (SEC). Consequently, the securities were
                                                                   To explain the nature of the fraud, the in-
               sold only within the State of Missouri and some
                                                                   dictment alleged that, in 1998 and 1999, the
               of the funds raised from this scheme furnished
                                                                   defendants fraudulently inflated the reported
               the money used by one of the former owners to
                                                                   results of operations and financial condition of
               purchase SNB. The loans that secured these secu-
                                                                   Hamilton Bancorp and defrauded the investing
               rities were also used in the fraudulent activity    public and the bank and securities regulators,
               involving SNB.                                      so that the accused would unjustly enrich and
                                                                   benefit themselves through higher salaries,
               Also in the state investigation, in a negotiated    bonuses, and stock options, and would facilitate
               plea agreement, a certified public accountant       an upcoming registered securities offering to the
               for the former SFG and SNB, pleaded guilty to       investing public. The former chairman of the
               one count of false statements and one count of      board and CEO made nearly $2 million in
               perjury in the Greene County Circuit Court,
               Springfield, Missouri. He admitted that he and
               others created false and misleading documents
               to inflate over $10 million of the net worth of
               SFG. Over 3,000 investors lost over $60 million
               when SFG’s true financial condition was exposed
               in 2001.

               The federal case was prosecuted by the Fraud
               Section of the U.S. Department of Justice,
               Washington, D.C. The state case was prosecuted
               by the Missouri Attorney General’s Office. The
               case was investigated by the FDIC OIG, FBI,
               Treasury OIG, and the Missouri Secretary of
               State’s Office.

   28 SEMIANNUAL REPORT TO THE CONGRESS
bonuses. The former president and director and        This case is being investigated by the FDIC OIG
the former senior vice president and chief finan-     and the Department of Treasury OIG. The case is
cial officer each made more than $100,000 in          being prosecuted by the U.S. Attorney’s Office for
bonuses while the fraud was concealed.                the Southern District of Florida. Trial is sched-
                                                      uled for June 27, 2005.
The indictment further alleged that the defen-
dants participated in a fraudulent scheme             Former Chairman of the Connecticut Bank of
whereby they falsely inflated the results of oper-    Commerce Sentenced
ations and financial condition of Hamilton            On January 24, 2005, the former chairman of the
Bancorp in the SEC filings; obstructed OCC’s          board of directors, Connecticut Bank of Com-
examination of Hamilton Bank; and lied to the         merce (CBC) was sentenced in the U.S. District
investing public, the bank and securities regula-     Court, New Haven, Connecticut, to 51 months’
tors, and their accountants regarding the true        incarceration and 36 months’ supervised release.
financial health of Hamilton Bancorp and              No criminal restitution was ordered by the court
Hamilton Bank. The indictment charged that, in        because the parties agreed that the former chair-
1998 and 1999, the three defendants engaged in        man’s payment of $8.5 million to the FDIC as
swap transactions (or “adjusted price trades”) to     part of his settlement of the agency’s administra-
hide Hamilton Bank’s losses, including $22 mil-       tive charges satisfied all losses directly related to
lion-plus losses in 1998, and falsely accounted for   his criminal conduct.
the transactions to make it appear that no losses
had been incurred. While the defendants falsely       On October 4, 2004, the former chairman
reported the nature of the swap transactions to       pleaded guilty to a one-count criminal informa-
the investing public and the regulators, the in-      tion charging him with misapplication of bank
dictment revealed recorded conversations in           funds. According to the information, the former
which the defendants openly discussed the trans-      chairman caused the president of CBC to prepare
actions as swaps. In addition, the indictment         and present for approval to the CBC board of
charged that while the fraud was concealed, the       directors a proposed $1.3 million unsecured loan
former chairman of the board and CEO engaged          to a firm known as Triumph Financial, LLC
in illegal insider trading in Hamilton Bancorp’s      (Triumph). The CBC board of directors, includ-
stock through the use of trust accounts. During       ing the former chairman, voted to approve the
1998, Hamilton Bancorp had a market capitaliza-       loan. The information charged that the former
tion of more than $300 million.                       chairman knew Triumph did not have the liquid-
                                                      ity to repay the loan and that the loan did not
Also during the reporting period, a new indict-       meet prudent underwriting standards.
ment was filed adding a fourth defendant to the
conspiracy count, an investment banker in             This case was investigated by the FDIC OIG, the
London. This defendant is the former managing         FBI, and the Internal Revenue Service Criminal
director of Deutsche Morgan Grenfell and was          Investigation Division. The case was prosecuted
an advisor to the Hamilton Bancorp Board of           by the U.S. Attorney’s Office for the District of
Directors. He was charged for his role in allowing    Connecticut.
the use of Deutsche Morgan Grenfell as a conduit
in several Russian loan transactions in an effort     Former Executive Vice President Pleads
to disguise the true nature of certain transac-       Guilty to Conspiracy to Commit Bank Fraud
tions. He has pleaded not guilty.                     On January 14, 2005, a former executive vice
                                                      president and chief loan officer for Minnwest
Hamilton Bank was South Florida’s highest pro-        Bank South, Tracy, Minnesota, pleaded guilty to
file trade finance bank before it ran into trouble    conspiracy to commit bank fraud in the U.S.
with its regulator, the OCC, over the question-       District Court of Minnesota.
able loan swaps that allowed the bank to hide
$22 million in losses in 1998. The OCC closed         In addition to his role as a bank officer, the
the bank in January 2002 and the FDIC took on         defendant owned and operated a cattle-feeding
liquidation responsibilities as receiver.             venture. In 1997, he began experiencing financial

                                                                                  Investigations: Making an Impact 29
       problems with the cattle business and was unable     at the bank, and customers were assured that
       to obtain financing at other banks. The defen-       such payments would be immediately credited to
       dant used his position at the bank to help his       the customers’ accounts. The telephone and util-
       financially troubled business by making nominee      ity payments were set up through American Pay-
       loans to three bank customers. The borrowers         ment Systems. The defendant removed $1,000 in
       never received the loan funds, and they did not      funds paid by customers who intended to pay
       make payments on the loans. The loan proceeds        telephone and utilities bills, hid her activity by
       went directly to the defendant, and he used the      altering the bank’s teller machine ticket for
       money for his cattle business, thus preventing its   American Payment Systems payments, wrote
       failure. The defendant also created the false        over the figures on the teller tape, or sometimes
       appearance that these nominee loans were being       tore the tape thereby removing certain trans-
       repaid, when in fact the purported payments          actions.
       were made by funds from new nominee loans.
       This loan kiting scheme gave the defendant use       This case was investigated by the FDIC OIG and
       of more than $590,000 in loan proceeds that he       the FBI. Prosecution was handled by the U.S.
       would not otherwise have had access to. The          Attorney’s Office for the Central District of
       defendant falsified loan notes and related bank      Illinois.
       records to conceal this scheme.
                                                            Former State of Minnesota Representative
       This case is being worked jointly by the FDIC        Indicted on Fraud Charges
       OIG and FBI. Prosecution is being handled by         On October 19, 2004, a federal grand jury for the
       the U.S. Attorney’s Office for the District of       District of Minnesota returned a seven-count
       Minnesota.                                           indictment against a former State of Minnesota
                                                            Representative. The grand jury charged the
       Former Bank Employee Sentenced                       defendant with four counts of mail fraud, one
       for Bank Fraud                                       count of conspiracy, and two counts of money
       On March 9, 2005, a former employee of Soy           laundering in connection with his activity with
       Capital, Decatur, Illinois, was sentenced in the     the former Town & Country Bank of Almelund
       U.S. District Court for the Central District of      (T&C Bank), Minnesota.
       Illinois, to 10 months’ home confinement and
       5 years’ supervised release. She was also ordered    During the defendant’s tenure in the Minnesota
       to pay $71,460 in restitution to Soy Capital Bank    House of Representatives, he served as the chair-
       and $1,000 to Citizens Community Bank.               man of the House Regulated Industries Commit-
                                                            tee, which oversaw legislation regarding utility
       The sentence was the result of the defendant’s       companies. According to the indictment, the
       guilty plea to one count of embezzlement. The        defendant used his position to enact legislation
       investigation leading to her guilty plea found       permitting utility companies to use energy con-
       that the employee had embezzled almost $71,000       servation funds for research and development
       in funds. On more than 100 occasions over a          projects. Once the legislation was enacted, the
       11/2 year period, she obtained funds from bank       defendant used his position to coerce the utility
       tellers by falsely representing that the cash was    companies to pay $650,000 in grants to Northern
       needed to pay customers who did not receive the      Pole, a Minnesota corporation created to recycle
       proper amount of cash from Soy ATM machines.         old utility poles. The defendant had a significant
                                                            equity stake in Northern Pole.
       The investigation of this matter further deter-
       mined that the employee also defrauded Citizens      The defendant had a personal and business rela-
       Community Bank, where she obtained a branch          tionship with the former president of T&C Bank.
       manager position after being terminated from         The defendant met the former president as a
       employment at Soy Capital Bank. As a service         borrower from T&C Bank and developed a per-
       to its customers, Citizens Community Bank            sonal relationship when the former president
       accepted certain telephone and utility payments      worked on the defendant’s various election cam-

30 SEMIANNUAL REPORT TO THE CONGRESS
paigns for public office. T&C Bank failed in July    Attorney’s Office for the District of Minnesota is
2000, at which time the FDIC was appointed           prosecuting the case.
receiver. The failure of T&C Bank resulted in an
estimated loss of $3.4 million to the FDIC Bank      Former Officer of Consumer Alliance, Inc.
Insurance Fund.                                      Arrested on Fraud Charges
                                                     On December 12, 2004, a Canadian citizen and
As alleged in the indictment, the defendant and      former officer of Consumer Alliance, Inc., was
the former president of T&C Bank devised a           indicted by a federal grand jury in the Southern
scheme whereby the defendant would invest in         District of Illinois on charges of mail fraud, wire
Northern Pole, a troubled creditor of T&C Bank.      fraud, conspiracy, and using a fictitious address
The scheme involved borrowing money from             in furtherance of a mail fraud.
T&C Bank in the name of the defendant’s other
businesses, diverting those funds to Northern        The subject was one of four individuals named in
Pole and other troubled creditors of the bank,       a criminal complaint filed earlier last year for
and using State of Minnesota grant money to pay      allegedly participating in a telemarketing fraud
back the defendant’s debt service on the loans.      scheme that defrauded thousands of U.S. con-
                                                     sumers out of several million dollars by selling
According to the indictment, in 1997 and 1998,       phony credit card protection. The credit card
the defendant borrowed a total of $670,000 from      transaction activities of Consumer Alliance con-
T&C Bank and loaned the funds to Northern            tributed to the December 2000 failure of the
Pole. In addition to being Northern Pole’s pri-      National State Bank, Metropolis, Illinois, causing
mary creditor, the defendant and the former          losses to National State Bank of approximately
president agreed that the defendant would have       $1.6 million. A warrant for the subject’s arrest
an equity stake in the future revenues of North-     was issued at the time the criminal complaint
ern Pole. To conceal both his creditor and equity    was filed. On November 24, 2004, the subject
status in Northern Pole, the defendant arranged      was arrested at the port of entry in Buffalo, New
for the loans to be made in the name of his other    York, by U.S. Customs and Border Protection
businesses and purposely was not named as            inspectors. The three other wanted Consumer
owner, officer, or employee of Northern Pole.        Alliance principals remain at-large.

Subsequently, the defendant used his position to     This case is being jointly investigated by the
amend the laws of Minnesota and persuaded            FDIC OIG and the U.S. Postal Inspection Ser-
the utility companies to issue grant money to        vice. Prosecution is being handled by the U.S.
Northern Pole. From late 1999 to early 2002,         Attorney’s Office for the Southern District of
Northern Pole obtained $650,000 in grants from       Illinois.
Minnesota utility companies. Upon receiving
the various grants, Northern Pole used approxi-      Three Defendants Indicted in $10 Million
mately $273,559 to pay debt service on the de-       Fraud at Universal Federal Savings Bank
fendant’s loans at T&C Bank.                         A federal grand jury in the Northern District of
                                                     Illinois returned a six count indictment charging
The former president of T&C Bank pleaded             Universal Federal Savings Bank’s (Universal) for-
guilty in September 2003 to charges of bank          mer chief operations officer (COO); her brother,
fraud, money laundering, false bank entries, and     a certified public accountant and principal in a
conspiracy for his role in the fraud that led to     now-defunct business; and a Universal customer
T&C Bank’s failure. The former president has         and client of the defunct business. The indict-
been cooperating in the investigation and is yet     ment charged the three defendants with conspir-
to be sentenced.                                     acy, aiding and abetting, misapplication of bank
                                                     funds, making false entries in bank records, wire
This case is the result of an investigation by the   fraud, and bank fraud. The indictment relates to
FDIC OIG, the FBI, and the Internal Revenue          the activities surrounding the failure of Univer-
Service Criminal Investigation Division. The U.S.    sal, Chicago, Illinois, on June 27, 2002.

                                                                                 Investigations: Making an Impact 31
                                   OIG and FDIC Benefit from Cooperative
                                    Financial Institution Fraud Casework
         Since January 2002, OIG investigations have resulted in over 106 indictments; 75 convic-
         tions; and fines, restitution, and recoveries of over $998 million. Most of these results
         come from OIG investigations of financial institution fraud, which now comprise 68 per-
         cent of the Office of Investigation’s (OI) caseload. The focus of our work in this area is on:

         ■ FDIC-Supervised Institutions

         ■ Fraud by Officers, Directors, or Insiders

         ■ Obstruction of Examinations

         ■ Fraud that Led to the Failure of the Institution

         ■ Fraud Impacting Multiple Institutions

         ■ Fraud Involving Monetary Losses that Could Significantly Impact the Institution

         Over 50 percent of our financial institution fraud caseload is generated based on referrals
         from the FDIC (43 percent from the Division of Supervision and Consumer Affairs (DSC);
         14 percent from the Legal Division). The Department of Justice (DOJ) is the other primary
         source of referrals for our work in this area (14 percent DOJ; 22 percent the Federal
         Bureau of Investigation).

         In many of these cases, the FDIC is pursuing parallel enforcement and/or civil actions.
         OI strives to work closely with DSC, the Legal Division and other FDIC offices to maximize
         the benefits that can be derived as we each pursue our individual missions. While the
         OIG’s focus in these cases is on seeking the successful prosecution of those responsible
         for the fraud, we are mindful as we pursue these criminal investigations of the regulatory
         concerns and interests of the FDIC. While there are many restrictions on the sharing of
         information obtained in a criminal investigation, we attempt to keep impacted FDIC offices
         as fully informed as the law allows. For instance,

         ■ We notify DSC when opening any investigation of financial institution fraud and keep DSC
           informed of the status of the investigation. This includes issuing quarterly reports to des-
           ignated DSC officials apprising them of the status of all OIG financial institution fraud
           cases and final reports apprising DSC and other impacted divisions of case outcomes.

         ■ When information is obtained through the grand jury process that could be of signif-
           icant concern to the FDIC, the OIG seeks court orders to allow the sharing of informa-
           tion for the FDIC to consider appropriate enforcement or other corrective action.

         ■ We coordinate with DSC and the Legal Division in attempting to structure plea agree-
           ments to include a stipulation to an Order of Prohibition.

         This information sharing is never a “one-way” street. Information provided by DSC, Legal,
         and the Division of Resolutions and Receiverships has been instrumental in the successful
         prosecution of many of our cases. DSC examiners have provided critical testimony as wit-
         nesses in some of our most significant cases. The mutual collaboration and cooperation
         between OI, DSC, and other FDIC offices has contributed to our successful case work, as
         illustrated in many of the case write-ups for the current semiannual reporting period. The
         OIG appreciates the solid working relationships established over the years and is commit-
         ted to continuing these mutually beneficial efforts with the Corporation.


32 SEMIANNUAL REPORT TO THE CONGRESS
The indictment alleged that from December             called for the former COO to be paid $80,000 per
2001 through June 2002, the former COO and            year and receive a $25,000 annual bonus.
bank customer conspired to misapply millions of
dollars of Universal’s funds. Throughout the          The bank fraud count against the former COO
6-month period, the bank customer allegedly           alleged that she fraudulently deprived Universal
engaged in a check-kite using the defunct busi-       of her honest services by failing to disclose her
ness account at Universal and Universal’s corre-      activities related to the fraud and the benefits she
spondent account at another bank. During that         had received.
time, the bank customer made approximately
138 deposits of insufficient fund (NSF) checks        The indictment also alleged that the bank cus-
into Universal’s correspondent account. The NSF       tomer engaged in a Ponzi scheme by telling sev-
checks were drawn on the defunct business             eral business associates and their representatives
account and totaled more than $200 million.           that he was involved in the medical equipment
                                                      business, and that, if they loaned him money, he
The former COO and bank customer also                 would invest their money in his business and
allegedly conspired to make false entries in the      repay them substantial amounts of interest in a
books and records of Universal to deceive the         very short period of time. The bank customer
bank’s chairman. The certified public accountant      allegedly used the inflated balances in the
played a role in the conspiracy by falsifying         defunct business account to repay the invest-
copies of checks. In addition, the bank customer      ments. Some of the investors again loaned the
allegedly used the fraudulently inflated balances     bank customer money, which he never repaid,
in an account at Universal to write checks to         resulting in a loss of more than $500,000 to
third parties and pay for wire transfers to online    approximately five investors.
gambling businesses and casinos. In all, he di-
verted approximately $9 million in funds cred-        The indictment also seeks forfeiture of at least
ited to the defunct business account for              $10 million from the former COO and bank
gambling.                                             customer.

As part of the scheme, the bank customer al-          Also during this reporting period, two separate
legedly provided benefits to the former COO           Settlement and Release Agreements were signed
to induce her to continue their arrangement.          by the FDIC and individuals connected to the
Among other things, in March 2002, the bank           FDIC OIG investigation of Universal’s failure.
customer purchased a new BMW for the former           The investigation revealed that $350,000 of funds
COO with an NSF check. In April 2002, the bank        obtained by the bank customer from Universal
customer and the former COO entered into an           was given to a businessman as an investment in a
agreement by which the bank customer would            start-up business. The businessman returned
provide unidentified consulting services for one of   $186,301 to the FDIC, minus expenses, as part of
the bank customer’s companies. The agreement          a negotiated settlement. The bank customer also
                                                      paid the FDIC $112,800 for money he diverted
                                                      from Universal to pay housing expenses.

                                                      OIG Agent Facilitates
                                                      Stipulation Agreement
                                                      Following our criminal investigation into the
                                                      failure of Hartford-Carlisle Savings Bank
                                                      (HCSB), the special agent assigned to this inves-
                                                      tigation worked with the FDIC Legal Division
                                                      to facilitate a Stipulation of Agreed Judgment
                                                      against a former shareholder, who was also the
                                                      mother of the former bank president, in the
BMW purchased by the bank customer for the former     amount of $413,911. The OIG investigation
COO.                                                  revealed that fraudulent loan activity by HCSB’s

                                                                                  Investigations: Making an Impact 33
       president and shareholders of the bank holding          U.S. Attorney’s Office for the Eastern District of
       company resulted in the failure of the institution.     Texas, and paid the remaining restitution balance
       The criminal investigation and prosecution              of $472,450. This payment was made pursuant to
       resulted in the conviction of five former share-        an understanding, made in coordination with
       holders of Wildcat, Inc., the bank holding com-         DRR and the Legal Division, that the U.S. Attor-
       pany. On September 18, 2003, a civil suit for           ney’s Office and the OIG would discontinue their
       collection of $413,732, plus interest, was filed by     fraud investigation of the individual if full resti-
       the Civil Division of the U.S. Attorney’s Office on     tution was paid. Our investigation, prompted by
       behalf of the FDIC against the mother of the            a referral from the Legal Division, had developed
       former bank president. This debt was incurred by        evidence that the defendant had illegally con-
       her for the purchase of Wildcat, Inc. stock. This       cealed assets in an attempt to avoid payment of
       stipulation settles that debt.                          his restitution.

       HCSB was an FDIC-supervised institution that            The defendant had previously submitted per-
       was closed on January 14, 2000, by the Iowa Divi-       sonal financial statements to the Financial Litiga-
       sion of Banking. Subsequently, the FDIC OIG and         tion Unit, in which he claimed a small monthly
       the FBI conducted a joint investigation regarding       income and stated he could not pay toward his
       suspected illegal activities that led to its closure.   restitution. However, our investigation deter-
       The U.S. Attorney’s Office for the Southern Dis-        mined that the defendant owned and operated
       trict of Iowa handled prosecution of this case.         a successful home building business in Dallas
                                                               and over a 3-year period placed approximately
                                                               $892,000 in business profits into a hidden bank
       Restitution and Other Debt                              account. These funds were used to pay the defen-
       Owed to the FDIC                                        dant’s personal living expenses, including his
                                                               monthly dues to a local golf and country club.
       FDIC Debtor Makes Full Payment                          He also used the funds to pay the mortgage on
       of Restitution                                          his father’s personal residence.
       On February 14, 2005, a Dallas resident who had
       been ordered to pay the FDIC $500,000 in resti-         Owner of Company that Owed
       tution as a result of a 1994 bank fraud conviction      Over $3 Million to the Former
       appeared in the Financial Litigation Unit of the        First New York Bank Sentenced
                                                               On March 9, 2005, one of the owners of a com-
                                                               pany that had borrowed over $5 million from the
                                                               now-defunct First New York Bank for Business
                                                               (First New York) was sentenced in the Southern
                                                               District of New York to 10 months in prison and
                                                               3 years’ supervised release; he was also ordered to
                                                               pay restitution in the amount of $103,600 to the
                                                               FDIC.

                                                               The sentence was a result of the defendant’s
                                                               guilty plea to conspiracy to commit bank fraud
                                                               in relation to his actions to divert money from
                                                               the former First New York and the FDIC as
                                                               receiver for First New York. The defendant’s
                                                               brother, who was a co-owner of the company,
                                                               had also agreed to plead guilty in the case, but
                                                               passed away prior to entering his plea. The two
                                                               brothers had previously been indicted by a fed-
                                                               eral grand jury on charges of defrauding and
                                                               conspiring to defraud the former First New York.
       Several properties being sold by an FDIC debtor.        The FDIC was appointed to act as the receiver for

34 SEMIANNUAL REPORT TO THE CONGRESS
the First New York following its closure by the      gations to the FDIC. In exchange, the FDIC
State of New York Banking Department in              agreed not to enforce the judgments unless any
November 1992.                                       financial information provided by him was false
                                                     or misleading.
As alleged in the indictment, beginning in March
1990, the defendants entered into a series of loan   The OIG subsequently initiated an investigation
agreements, guarantees, and promissory notes on      based on allegations referred by DRR that the
behalf of their company with First New York. In      debtor may have fraudulently transferred assets
1992, the defendants acknowledged they had           to conceal them from the FDIC. The OIG investi-
defaulted on the loans and entered into repay-       gation developed evidence that the debtor was
ment agreements with First New York in which,        the manager of significant real estate holdings
among other things, they agreed to repay the         owned by his wife and children. He did not dis-
loans by granting First New York the right to        close these holdings or his role in their manage-
clear all payments made by the company’s cus-        ment to the FDIC in the financial statements that
tomers. The defendants also agreed to direct all     he had submitted to the FDIC during the orig-
present and future customers to make their pay-      inal settlement process.
ments directly to First New York.
                                                     In addition to investigating the debtor’s alleged
However, unbeknownst to First New York,              false statements, the OIG coordinated with DRR
between July 1992 and August 1995, the defen-        and the Legal Division in connection with the
dants deposited accounts-receivable payments         negotiations to assist the U.S. Attorney’s Office in
owed to First New York pursuant to the agree-        making this collection.
ments into an account they had set up at another
bank. The indictment also alleged that, in fur-      Former Debtor Sentenced to Prison
therance of their scheme, they formed a series of    On October 4, 2004, an FDIC debtor from Con-
shell companies, which they used to falsely hide     cord, New Hampshire, was sentenced in the U.S.
business activities between the company and its      District Court for the District of New Hampshire
customers, thereby circumventing the repayment       to 1 year in prison and 4 years’ supervised re-
agreement with First New York.                       lease. He was also ordered to pay restitution in
                                                     the amount of $292,740 to the FDIC and fined
The OIG initiated this investigation based on a      $10,000.
referral from the FDIC Legal Division, which
became aware of questionable transfers during        The sentence was the result of the debtor’s guilty
the discovery phase of civil litigation with the     plea in October 2003 to two counts of providing
company over its debt. The case was prosecuted       false financial information to the FDIC for the
by the U.S. Attorney’s Office for the Southern       purpose of settling a $4.5 million judgment
District of New York.                                against him. The FDIC obtained the judgment
                                                     based on the debtor’s failure to pay two loans
Debtor Pays the FDIC $200,000                        from the former Dartmouth Bank, which failed
On March 7, 2005, an FDIC debtor from Water-         in 1991. Relying on the personal financial state-
bury, Connecticut, agreed to pay the FDIC            ment that the debtor provided to the FDIC indi-
$200,000 in settlement of claims by the FDIC.        cating his inability to repay loans, the FDIC sold
This payment was made pursuant to negotia-           the $4.5 million judgment to a third party for
tions between the U.S. Attorney’s Office and the     $160,000.
debtor’s counsel at a hearing in the U.S. District
Court in Bridgeport, Connecticut.                    In his guilty plea, the debtor admitted he pro-
                                                     vided false financial statements and a false affi-
In June 2001, the FDIC originally signed a settle-   davit of his financial condition to the FDIC. He
ment agreement with the debtor wherein he paid       also admitted that he had hidden several hun-
the FDIC $491,000 and stipulated to three judg-      dred thousand dollars worth of assets in com-
ments related to his then outstanding debt obli-     panies he had incorporated in Nevada.

                                                                                 Investigations: Making an Impact 35
       The FDIC OIG investigation was initiated based        The former president of Heritage is cooperating
       on a referral from the FDIC Legal Division.           with the investigation against the other defen-
       Prosecution of the case was handled by the            dants. The case was investigated by the FDIC
       U.S. Attorney’s Office for the District of New        OIG and the FBI. The case is being prosecuted
       Hampshire.                                            by the U.S. Attorney’s Office for the Northern
                                                             District of Texas.

       Obstruction of an Examination
       of a Financial Institution                            Electronic Crimes Unit
       Former Bank President Pleads Guilty
                                                             Investigates Computer Misuse
       On October 19, 2004, the former president of          Actions Taken Against FDIC Employees
       Heritage Savings Bank, Terrell, Texas, pleaded        for Inappropriate Use of Computers
       guilty in the Northern District of Texas, to aiding   During the reporting period, one FDIC
       and abetting the obstruction of an examination        employee resigned in lieu of adverse action for
       of a financial institution. The former president      inappropriate use of a government computer.
       was indicted on March 24, 2004, along with the        Another employee received a 3-day suspension
       two co-owners of San Clemente Securities (SCS)        for similar behavior. The difference in outcome
       and United Custodial Corporation, located in          relates to the volume and nature of the inappro-
       San Clemente, California, and a supervisory           priate use of the computers. The Electronic
       broker at SCS. The former president was charged       Crimes Unit (ECU) conducted an investigation
       with conspiracy, assisting the bank fraud, making     into allegations that the FDIC employees had
       false entries in the books and records of a finan-    used their computers to access pornographic
       cial institution, and obstructing the examination     images and possibly child pornographic images.
       of a financial institution.
                                                             While working these two separate cases, the ECU
                                                             obtained forensic images of the employees’ hard
       The former president of Heritage, in concert
                                                             drives, which were analyzed and checked for the
       with the defendants from SCS and United Custo-
                                                             existence of child pornography images. All
       dial Corporation, allegedly defrauded the bank
                                                             imaged files were compared to known child
       by causing it to purchase investments from SCS
                                                             pornographic images maintained by the National
       from which the former president and the others
                                                             Child Victim Identification Program.
       subtracted substantial undisclosed fees and com-
                                                             The analysis found that the hard drives con-
       missions ranging from 3 to 57 percent. During         tained no known child pornographic images.
       July and August 1998, the Office of Thrift Super-
       vision (OTS) conducted an examination of              The ECU’s forensic analysis of the hard drive of
       Terrell Federal Savings and Loan (name later          the first employee confirmed that the employee
       changed to Heritage). During the examination          had accessed adult pornographic Web sites and
       the defendant was asked by OTS to confirm             downloaded numerous pornographic images
       liquidation values of nine zero-coupon certifi-       and video files onto his hard drive. Based on
       cates of deposit he purchased from a supervisory      the results of the investigation, the FDIC was in
       broker at SCS. The broker prepared a spread-          the process of proposing adverse administrative
       sheet purporting to represent present liquidation     action when the employee submitted his
       values for the certificates of deposit. The defen-    resignation.
       dant admitted he knew the values represented on
       the spread-sheet did not disclose or reflect the      With respect to the second employee, his desktop
       amounts of premiums that had been deducted            and laptop hard drives were examined. There was
       by SCS from the amounts paid for the assets by        evidence that this employee had accessed adult
       Heritage. The defendant and broker had                pornographic Web sites, and adult pornographic
       intended to conceal the premium amounts               images were found on both the laptop and desk-
       from the OTS also.                                    top hard drives.

36 SEMIANNUAL REPORT TO THE CONGRESS
Electronic Crimes Unit Holds an                    ney’s Office for the Eastern District of Virginia
Open House to Showcase Its                         for work relating to a bomb-sniffing dog investi-
New Computer Forensic Lab                          gation. The subject in this case was convicted on
The ECU held an Open House to showcase its         a 25-count indictment and sentenced to 7 years
new Computer Forensic Lab. The Open House          in prison for fraud in connection with false
was well attended by headquarters OIG staff as     assertions to the U.S. government about cer-
well as FDIC Executives and their staff. The ECU   tifications and his dogs’ abilities to detect
provided demonstrations of OI’s equipment and      explosives.
forensic software and answered questions from
the invitees.
                                                   Special Agent Ed Slagle Receives
                                                   Letter of Commendation
Other Highlights                                   from Treasury OIG
Electronic Crimes Unit                             Special Agent Ed Slagle received a letter of com-
                                                   mendation signed by the Assistant Inspector
Special Agent Receives Award                       General for Investigations, OIG Department of
from the U.S. Attorney for the                     the Treasury. The commendation recognized
Eastern District of Virginia                       Special Agent Slagle for his outstanding efforts
                                                   during the investigation and subsequent trial of
On December 8, 2004, Special Agent Stephen J.      the defendants in the Sinclair National Bank
Murphy received an award from the U.S. Attor-      case.




                                                   L to R: Tom McDade, Ed Slagle, Sara Gibson, and
                                                   Patricia Black




Photographs from ECU Open House.


                                                                                Investigations: Making an Impact 37
       OI Training Conference
       The OIG’s OI training conference in March 2005
       provided an opportunity for OI’s special agents
       to fulfill the training required of law enforcement
       personnel at OIGs with statutory law enforce-
       ment authority.

       The classroom portion of the conference focused
       on legal education sessions addressing updates in
       judicial case law affecting federal law enforcement
       officers. This section of the training was provided
       by Federal Law Enforcement Training Center
       legal personnel from Glynco, Georgia.

       Another portion of the conference focused on
       OI’s investigative operations. The group discussed
       the activities of the OIG’s Electronic Crimes Unit
       in the area of “phishing” schemes. The group very
       much appreciated that representatives from DRR
       and DSC (pictured below) were able to partici-
       pate by speaking of the work of their respective
       divisions and the joint activities that the OIG has
       conducted with them in pursuing restitution
       cases and combating financial institution fraud.




       John Lane                Mitchell Glassman
       DSC Deputy Director      DRR Director




38 SEMIANNUAL REPORT TO THE CONGRESS
                                                        OIG Organization:
                                                        Pursuing OIG Goals

Our office continued to aggressively pursue our         ■   Conducted investigations that resulted in
four main OIG goals and related objectives                  13 indictments/informations; 8 convictions;
during the reporting period. These goals and                and approximately $24.1 million in total fines,
objectives form the blueprint for our work.                 restitution, and other monetary recoveries.
While the audit, evaluation, and investigative
work described in the earlier sections of this          ■   Performed 19 policy analyses on proposed
report drives our organization and contributes              FDIC directives or proposed revisions to
very fundamentally to the accomplishment of                 directives. We raised three policy suggestions
our goals, a number of other activities and initia-         regarding the draft directives, specifically in
tives complement and support these efforts and              the areas of training and development, the
enhance the achievement of our goals. Some                  Privacy Counterparts Group, and informa-
examples follow.                                            tion technology (IT) security risk manage-
                                                            ment. We also offered other suggestions to
                                                            strengthen or clarify the draft policies.
Value and Impact
                                                        ■   Reviewed and provided comments to the
OIG products will add value by achieving signif-            Division of Information Technology (DIT),
icant impact related to addressing issues of im-            at their request, on the FDIC’s sensitivity
portance to the Chairman, the Congress, and                 questionnaire, which is used to categorize the
the public. This goal means that we contribute              FDIC’s information systems.
to ensuring the protection of insured deposi-
tors, safety and soundness of FDIC-supervised           ■   Reviewed and provided comments to the
institutions, protection of consumer rights,                Government Accountability Office (GAO) on
achievement of recovery to creditors of                     the internal control portion of their opinions
receiverships, and effective management of                  on the FDIC’s 2004 financial statements.
agency resources. Efforts in support of this goal
and related objectives include the following:           ■   Advised the Corporation of areas of high vul-
                                                            nerability and those warranting continued
■   Issued 17 audit and evaluation reports con-             monitoring for the Corporation’s preparation
    taining $11.9 million in potential monetary             of its 2004 Statement on Internal Accounting
    benefits and 37 nonmonetary recommenda-                 and Administrative Controls.
    tions. As discussed earlier in this report, these
    reports address the management and per-             ■   Continued coordination of our Electronic
    formance challenges facing the Corporation.             Crimes Unit (ECU) with the Division of

                                                                            Management and Performance Challenges 39
           Supervision and Consumer Protection (DSC),            as other opportunities for improvement iden-
           Legal Division, and DIT officials to establish        tified in the report. Our periodic surveys of
           appropriate processes in addressing cyber             senior executives in the Corporation obtain
           crimes, including computer intrusion, phish-          their views of OIG products, processes, and
           ing and spoofing schemes, and investigations          services. Briefed the Operating Committee on
           of computer misuse by FDIC employees and              the results of the survey and our responsive
           contractors. Also continued to work with              actions.
           these officials on developing procedures for
           preserving electronic media at bank closings.     ■   Provided advisory comments to the Division
                                                                 of Finance on the draft of the FDIC 2005
       ■   Provided a case presentation by the ECU to            Annual Performance Plan. Comments related
           the FDIC Vice Chairman and other senior               to (1) improving the performance plan’s link-
           FDIC officials regarding a phishing scheme            age to the 2005 Corporate Performance Ob-
           involving the FDIC.                                   jectives, (2) considering performance goals for
                                                                 key resource management activities, (3) clar-
       ■   Participated in an advisory capacity at meet-         ifying certain performance targets, and
           ings of the Audit Committee’s IT Security             (4) improving internal control and informa-
           Subcommittee and FDIC Chief Information               tion security program discussions.
           Officer’s Council.
                                                             ■   Provided an informational analysis of the
       ■   Briefed Senate Banking Committee staff on             Government Performance and Results Act
           the progress of our work related to the FDIC’s        (GPRA) performance goals and the Chair-
           supervision of an institution’s compliance            man’s corporate performance objectives to
           with the Bank Secrecy Act (BSA). This work            assist the Corporation in any future efforts to
           was done in response to the Committee                 integrate the two.
           Chairman’s request that we determine
           whether the FDIC adequately fulfilled its         ■   Worked closely with the FDIC developing
           responsibilities to monitor and assure the            presentations on lessons learned/red flags
           institution’s compliance with BSA. We later           based on the OIG’s experience in investigat-
           provided a copy of our report to the Chair-           ing major fraud at financial institutions.
           man and Ranking Member of the Committee.              Such presentations explain the investigative
                                                                 process, alert examiners to possible red flags
       ■   Provided the Corporation with the OIG’s               or signs of fraud and/or obstruction, and pro-
           assessment of the most significant manage-            vide guidance on making referrals and coordi-
           ment and performance challenges facing the            nating with the OIG on suspected fraud. Our
           FDIC, in the spirit of the Reports Consolida-         Office of Investigations (OI) provided these
           tion Act of 2000. The Act calls for these             types of presentations at training conferences,
           challenges to be included in the consolidated         Federal Financial Institutions Examination
           performance and accountability reports of             Council seminars, and DSC Field Office meet-
           those federal agencies to which it applies. We        ings. Also, at the request of DSC, OI provided
           also provided our assessment to the Chief             input for a presentation DSC was developing
           Financial Officer (CFO) and a summary of              on fraud and pursuing 8(e) actions.
           the challenges to the Office of Enterprise Risk
           Management for inclusion in the 2004              ■   Attended two quarterly meetings of the Fed-
           Annual Report. We had earlier shared a draft          eral Savings and Loan Insurance Corporation
           listing of the challenges with the divisions          Resolution Fund Dissolution Task Force.
           and offices and also briefed the Audit
           Committee.                                        ■   Organized and provided a TeamMate demon-
                                                                 stration to staff of DSC’s Internal Control and
       ■   Developed action steps to address issues and          Review Section who are considering elec-
           concerns from our sixth client survey as well         tronic working papers for their office.

40 SEMIANNUAL REPORT TO THE CONGRESS
Communication                                            tance, and in May 2004, Special Agent Van
                                                         Noy was detailed to Baghdad, Iraq to help.
and Outreach                                             The CPA OIG is charged with reviewing and
Communications between the OIG and the                   investigating allegations of fraud, waste, and
Chairman, the Congress, employees, and other             abuse relating to the use of Iraq Relief and
stakeholders will be effective. We seek to foster        Reconstruction Funds. The CPA OIG was cre-
effective agency relations and communications,           ated by statute to promote economies and
congressional relations and communications,              efficiency in the use of $18.7 billion provided
OIG employee relations and communications,               by the U.S. government for Iraq’s post-war
and relations and communications with other              rehabilitation. While on assignment, Special
OIG stakeholders. Efforts in support of this             Agent Van Noy investigated several allegations
goal and related objectives include the                  of contractor fraud pertaining to the funding
following:                                               for Iraq’s post-war rehabilitation.

■   Cosponsored an Emerging Issues in Banking        ■   Former IG Gianni attended the fall conference
    symposium along with the Federal Reserve             of the Inspectors General Association. This
    Board and Department of the Treasury OIGs.           group consists of Inspectors General and pro-
    This forum brought together representatives          fessional staff in their agencies, as well as other
    from the financial regulatory agency OIGs,           officials responsible for inspection and over-
    GAO, Securities and Exchange Commission,             sight of public, not-for-profit, and independent
    Pension Benefit Guaranty Corporation, Fed-           sector organizations. Topics covered at the con-
    eral Housing Finance Board, and others to            ference included Strengthening Communica-
    hear from leading experts about emerging             tion and Collaboration, A Multi-Organizational
    issues that impact our collective and individ-       Task Force Approach to Fraud, White Collar
    ual work and responsibilities.                       Crime, Using Data Analysis Tools, and Fraud
                                                         Auditing.
■   Hosted an interagency meeting of the IT
    Security Committee. This committee was           ■   Presented information security-related topics
    created by the Inspector General (IG) com-           to members of the President’s Council on
    munity’s Federal Audit Executive Council to          Integrity and Efficiency (PCIE). Assistant
    promote interagency coordination of inde-            Inspector General for Audits (AIGA) Rus Rau
    pendent security evaluations conducted pur-          spoke to the group in his role as Chair of the
    suant to the Federal Information Security            IT Security Committee of the Federal Audit
    Management Act of 2002 (FISMA). Individ-             Executive Council. Mr. Rau’s presentation
    uals from 18 federal agencies attended the           covered activities of the Committee in the
    meeting, including representatives from the          areas of policy review, evaluation guidance,
    House of Representatives Government
    Reform Committee, Office of Management
    and Budget (OMB), GAO, and National Insti-
    tute of Standards and Technology. Discussed
    were lessons learned from the 2004 evalua-
    tions, ongoing efforts to standardize agency
    evaluations, and committee priorities for the
    remainder of 2004 and 2005.

■   Special Agent Cindy Van Noy returned to the
    FDIC OIG during the reporting period fol-
    lowing an assignment in Baghdad, Iraq. The
    Coalition Provisional Authority Office of
    Inspector General (CPA OIG), now called the
    Special Inspector General for Iraq Recon-
    struction, approached our office for assis-      Cindy Van Noy


                                                                            OIG Organization: Pursuing OIG Goals 41
           implementation, and reporting. He also high-           ture, and Department of Justice; and other
           lighted some current issues under discussion,          representatives from GAO, OMB, National
           including interpretation of key terms, atten-          Institute of Standards and Technology, and
           tion to interagency security issues, and align-        several private-sector professional services
           ment of FISMA and CFO reporting dates.                 firms.

       ■   Spoke at the Performance Institute’s confer-       ■   Hosted an Open House in our Electronic
           ence on Measuring and Improving Financial              Crimes Unit laboratory for FDIC executives
           Management in Government. The conference               and their staffs, at which demonstrations on
           focused on helping financial managers                  ECU equipment and forensic software were
           develop a financial management framework,              provided.
           complete with management standards and
           performance measures that cut across mul-          ■   Provided input to Kansas City DSC as it pre-
           tiple functions for financial performance.             pared a presentation for the FDIC Risk Analy-
           Financial managers from federal, state, and            sis Center related to Fraud-An Examiner’s
           local government organizations attended the            Perspective on Successful 8(e) Investigations.
           conference sessions. Mr. Ross Simms from our
           Office of Audits discussed the importance of       ■   Participated in quarterly meetings with other
           integrating risk management and internal               OIGs to share common human resource
           control in financial reporting. He also pro-           issues and topics.
           vided the participants with best practices to
           consider and discussed how financial man-          ■   Met with financial regulatory Inspectors Gen-
           agers can work with auditors to identify risks         eral to share and discuss issues of common
           and areas where internal control can be                interest.
           strengthened.
                                                              ■   Held quarterly meetings with financial reg-
       ■   Played an active role in the Federal Audit
                                                                  ulatory Assistant Inspectors General to share
           Executive Council. As referenced earlier, our
                                                                  best practices and ideas on issues of mutual
           AIGA is the Chair of the FISMA/Information
                                                                  concern.
           Security Committee of the Council, and in
           that capacity was called upon to speak at
                                                              ■   Attended PCIE Roundtable meetings on both
           several professional forums. Additionally,
                                                                  GPRA and Inspections and Evaluations.
           our Office of Audits is taking the lead role in
           planning the annual Federal Audit Executive
                                                              ■   Former IG Gianni served as Vice Chair of the
           Council conference to be held in April 2005.
                                                                  PCIE during the first half of the reporting
       ■   Participated at, and helped organize, the Insti-       period, and in that capacity, he chaired
           tute of Internal Auditors’ 2005 Government             monthly Council meetings and welcomed
           Auditing Conference, the theme of which was            guest speakers from OMB, GAO, the Adminis-
           Changing World: Issues, Challenges, and                tration, and individual OIGs to discuss issues
           Practices. Former IG Gianni and Deputy                 of importance to the IG community. With the
           AIGA Sharon Smith helped spearhead plan-               former FDIC IG’s retirement, we have worked
           ning efforts. The agenda included presenta-            with the new Vice Chair’s office to transfer
           tions on such topics as Keeping Pace with              leadership responsibilities.
           Change, Identity Theft, Financial Manage-
           ment, E-Government, Human Capital, Using           ■   Continued ongoing meetings between the
           the Internet to Improve Auditing, Sarbanes-            Executives of the OIG and the FDIC’s Divi-
           Oxley Considerations, and FISMA. Distin-               sion and Office Heads in both headquarters
           guished speakers included the Comptroller              and regional offices to foster and sustain suc-
           General; the Auditor General of the World              cessful cooperation and communication in all
           Bank; Inspectors General from the Depart-              aspects of our audit, evaluation, and investiga-
           ment of Commerce, Department of Agricul-               tive activities.

42 SEMIANNUAL REPORT TO THE CONGRESS
■   Participated in meetings of the Interagency            ous training required of law enforcement per-
    Bank Fraud Working Group in headquarters               sonnel in the IG community. Much of the con-
    and the regions.                                       ference focused on legal education sessions.
                                                           The group also discussed the activities of the
■   Coordinated with IGs, Assistant Inspectors             OIG’s Electronic Crimes Unit in the area of
    General for Audits, and Assistant Inspectors           phishing schemes. DSC and Division of Reso-
    General for Investigations of federal financial        lutions and Receiverships representatives spoke
    institution regulatory agencies.                       of the work of their respective divisions and the
                                                           joint activities that the OIG has engaged in
■   Communicated with congressional staff of the           with them in combating financial institution
    House and Senate Oversight Committees                  fraud and working restitution cases.
    regarding FDIC’s new Acting IG and reports
    issued by the OIG. Coordinated with the Cor-       ■   Met with the OIG’s Employee Advisory
    poration’s Office of Legislative Affairs with          Group. This group provides feedback to the
    respect to such interaction with the Congress.         IG/Acting IG on the working conditions and
                                                           business processes of the office and keeps OIG
■   Provided weekly highlights reports to the              staff informed of current issues of employee
    FDIC Chairman to keep him informed of                  concern.
    significant OIG events.
                                                       ■   Held Celebrating the OIG event to recommit
■   Presented the results of OIG audit and eval-           to the OIG mission and acknowledge the
    uation work at monthly meetings of the Audit           diverse skills and talents of OIG staff. Empha-
    Committee. Audit Committee members                     sis was placed on the many talents and quali-
    include the FDIC Vice Chairman, the CFO,               ties that staff have cultivated outside the office
    and the Director of the Office of Thrift               and bring to bear on their work at the FDIC.
    Supervision. These meetings bring senior
    management attention to OIG findings,              ■   Provided OIG input to the Corporation’s
    recommendations, and related issues of                 annual diversity report.
    significance.
                                                       ■   Participated in the IG Management Institute’s
                                                           Applied Management Studies training pro-
Human Capital                                              gram, tailored to address IG community
                                                           training needs.
The OIG will align its human resources to sup-
port the OIG mission. We aim to enhance our
                                                       ■   Sponsored participation of two OIG employ-
workforce analysis and planning, competency
                                                           ees in leadership training held for the PCIE
investments, leadership development, and
                                                           by the Federal Executive Institute in Char-
the development of a results-oriented, high-
                                                           lottesville, Virginia.
performance culture. Efforts in support of this
goal and related objectives include the following:
                                                       ■   Made arrangements to participate in the IG
                                                           Community’s pilot implementation of
■   Held an Office of Audits (OA) Training Con-
                                                           e-learning through SkillSoft. By leveraging
    ference for OA staff to prepare for the coming
                                                           technology, this program is designed to
    year of assignments and sharpen skills and
                                                           offer quality training to OIG staff in a cost-
    knowledge related to such areas as report
                                                           effective, efficient manner.
    writing, automated working papers, quality
    control techniques, and communication. All
    OA staff received the FDIC’s Ethics training at
    the conference as well.
                                                       Productivity
                                                       The OIG will effectively manage its resources.
■   Held an OI Training Conference to provide an       We have taken steps to contain OIG costs and
    opportunity for OIG agents to fulfill the rigor-   undertook several initiatives to ensure that our

                                                                              OIG Organization: Pursuing OIG Goals 43
       processes are efficient and that our products                (4) managing our resources effectively. In
       meet quality standards. Efforts in support of this           addition, the plan reflects linkages to the
       goal and related objectives include the following:           FDIC Strategic Plan, the OIG-identified Man-
                                                                    agement and Performance Challenges Facing
       ■   Included the OIG’s budget for $29,965,000                the FDIC, the Office of Audits’ Assignment
           ($160,000 less than the Congress appropriated            Plan, and the OIG Human Capital Strategic
           for fiscal year 2005) in the fiscal year 2006            Plan.
           budget that the President sent to the Con-
           gress. This is the amount agreed to by the           ■   Enhanced OIGnet, our internal Web-based
           Chairman and former IG Gianni and sup-                   resource to improve its usefulness. With the
           ports an authorized staffing level of 160. The           redesign, most items can be retrieved directly
           budgeted amount absorbs higher projected                 from the site’s first page, including policies,
           expenses for salaries, employee benefits, and            forms, contacts, and plans. All OIG publica-
           other costs by reducing funds for travel, con-           tions are linked to the page and can be easily
           tracts, and equipment purchases. The 2006                retrieved for reference.
           budget represents the OIG’s tenth consecutive
           budget decrease after adjusting for inflation.       ■   Made refinements to the OIG’s Dashboard, an
                                                                    executive information system to improve the
       ■   Issued the OIG’s FY 2005 Performance Plan                efficiency of OIG management oversight of
           identifying 39 specific annual performance               internal operations. The Dashboard provides
           goals designed to help us achieve our strategic          timely information on key OIG performance
           goals and objectives. The plan reflects the              measures, the budget and monthly spending
           OIG’s emphasis on (1) adding value by                    reports, staffing, and annual performance
           achieving impact on issues of importance to              goals.
           the Corporation and our other stakeholders;
           (2) fostering effective communications with          ■   Completed an internal quality control review
           our stakeholders; (3) aligning human re-                 of one audit/evaluation directorate. All signif-
           sources to support the OIG mission; and                  icant matters have been resolved.



                                                   OIG Organization Chart


                                              Acting Inspector General
                                                  Patricia M. Black                       Counsel to the
                                                                                        Inspector General
                                             Deputy Inspector General
                                                                                         Fred W. Gibson
                                                 Patricia M. Black




                          Office of Audits                               Office of Investigations

                     Assistant Inspector General                     Assistant Inspector General
                             Russell Rau                                 Samuel M. Holland




                       Office of Management                               Office of Quality
                    and Congressional Relations                       Assurance and Oversight
                     Assistant Inspector General                     Assistant Inspector General
                            Rex Simmons                                 Robert L. McGregor


44 SEMIANNUAL REPORT TO THE CONGRESS
                                                Points of Contact
                  Title                                                   Name                 Telephone Number

                  Acting Inspector General                        Patricia M. Black               202-416-2026
                  Deputy Inspector General                        Patricia M. Black               202-416-2026
                  Counsel to the Inspector General                Fred W. Gibson                  202-416-2917
                  Assistant Inspector General for Audits          Russell Rau                     202-416-2543
                    Deputy Asst. Inspector General                  Stephen Beard                 202-416-4217
                      for Audits
                    Deputy Asst. Inspector General                   Sharon Smith                 202-416-2430
                      for Audits
                  Assistant Inspector General for                 Samuel Holland                  202-416-2912
                    Investigations
                  Assistant Inspector General for                 Rex Simmons                     202-416-2483
                    Management and Congressional
                    Relations
                  Assistant Inspector General for Quality         Robert McGregor                 202-416-2501
                    Assurance and Oversight




                                                 OIG Counsel Activities
                                               (October 2004–March 2005)
The Mission of the Office of Counsel
The Office of Counsel provides independent legal advice and assistance to the Inspector General and the staff of the OIG. The
Office litigates personnel and other cases; provides advice on matters arising during the course of audits, investigations, and evalu-
ations, including reviewing reports for legal sufficiency; manages the OIG’s Ethics process; reviews, analyzes, and comments on
proposed or existing regulations or legislation, including banking legislation and implementing regulations; communicates and
negotiates with other entities on behalf of the OIG; responds to Freedom of Information Act (FOIA) and Privacy Act requests and
appeals; prepares and enforces subpoenas for issuance by the Inspector General; and coordinates with the Legal Division, the
Department of Justice, and other agency and governmental activities. Examples from the reporting period include:

 Litigation                     Counsel’s Office represented the OIG in cases before the Equal Employment Opportunity Commis-
                                sion and before the District Court for the District of Columbia. The Office of Counsel was involved in
                                22 litigation matters, two of which were resolved during the period, and the remainder
                                of which are awaiting further action by the parties or rulings by the court.
 Advice and Counseling          Counsel’s Office provided advice and counsel, including written opinions, on issues involving the
                                statutory authority of the Inspector General; E-government initiatives; protection of sensitive infor-
                                mation; Federal Information Security Management Act’s external auditor provision; bank supervi-
                                sion matters involving aspects of the USA PATRIOT Act, the Bank Secrecy Act, and the Bank
                                Merger Act; closed bank matters including dividend payments and asset write-offs for receiver-
                                ships; contract interpretations; investigative matters; and various ethics-related matters. In addition,
                                Counsel’s Office provided comments relative to the legal accuracy and sufficiency of more than
                                15 audit and evaluation reports.
 Legislation/Regulation         During this reporting period, Counsel’s Office reviewed and commented upon proposed FOIA legis-
 Review                         lation entitled The OPEN Government Act, and reviewed three proposed formal FDIC regulations.
                                Counsel’s Office also commented on six proposed or final directives and various policies.
 Subpoenas                      Counsel’s Office prepared four subpoenas for issuance by the Inspector General or Acting Inspec-
                                tor General during this reporting period.
 Freedom of Information         Counsel’s Office responded to nine requests under the FOIA, one FOIA appeal, and assisted FDIC
 and/or Privacy Act             Counsel in a FOIA-related lawsuit.


                                                                                                 OIG Organization: Pursuing OIG Goals 45
                              Table 1: Significant OIG Achievements
                                          (October 2004–March 2005)

                              Audit and Evaluation Reports Issued                                       17
                              Questioned Costs and Funds Put to Better Use                              $11.9 million
                              Investigations Opened                                                     24
                              Investigations Closed                                                     20
                              OIG Subpoenas Issued                                                       4
                              Convictions                                                                8
                              Fines, Restitutions, and Monetary Recoveries                              $24.1 million
                              Hotline Allegations Referred                                              10
                              Proposed Regulations and Legislation Reviewed                              4
                              Proposed FDIC Policies Reviewed                                           19
                              Responses to Requests and Appeals under the
                                Freedom of Information and/or Privacy Act                               10




                              Table 2: Nonmonetary Recommendations

                              October 2002–March 2003                                                           90
                              April 2003–September 2003                                                        103
                              October 2003–March 2004                                                           51
                              April 2004–September 2004                                                         86
                              October 2004–March 2005                                                           37




                              Figure 2: Products Issued and Investigations Closed
                             35
                                                                                                      10/02 – 3/03
                                                           31                            31           4/03 – 9/03
                                                                                                      10/03 – 3/04
                             30                                                                       4/04 – 9/04
                                     27                                                               10/04 – 3/05
                                                                              26
                                                                                                 25
                             25

                                            20                                                           20
                             20
                                                    17            17               17
                             15


                             10


                              5


                              0
                                          Audits & Evaluations                      Investigations




46 SEMIANNUAL REPORT TO THE CONGRESS
 Figure 3: Questioned Costs/Funds Put to Better Use
               ($ in millions)
60

                                                      51.2
50


40


30


20

                                                                    11.9
10
                                        4.3
        1.26             1.3
0
     10/02 – 3/03     4/03 – 9/03   10/03 – 3/04   4/04 – 9/04   10/04 – 3/05




 Figure 4: Fines, Restitution, and Monetary Recoveries
           Resulting from OIG Investigations ($ in millions)
80

70                       68.1

60

50

40                                                    38.6

30      26.2
                                                                    24.1
20

10
                                        1.7
0
     10/02 – 3/03     4/03 – 9/03   10/03 – 3/04   4/04 – 9/04   10/04 – 3/05




                                    OIG Organization: Pursuing OIG Goals 47
                                                                                    Reporting Terms and
                                                                                    Requirements

Index of Reporting Requirements—Inspector General Act
of 1978, as amended
Reporting Requirement                                                                                                                                     Page
Section 4(a)(2): Review of legislation and regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45
Section 5(a)(1): Significant problems, abuses, and deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7-23
Section 5(a)(2): Recommendations with respect to significant problems, abuses,
  and deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7-23
Section 5(a)(3): Recommendations described in previous semiannual reports on which
  corrective action has not been completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .51
Section 5(a)(4): Matters referred to prosecutive authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .24
Section 5(a)(5) and 6(b)(2): Summary of instances where requested information
  was refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .55
Section 5(a)(6): Listing of audit reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .53
Section 5(a)(7): Summary of particularly significant reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7-23
Section 5(a)(8): Statistical table showing the total number of audit reports and the
  total dollar value of questioned costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .54
Section 5(a)(9): Statistical table showing the total number of audit reports and the
  total dollar value of recommendations that funds be put to better use . . . . . . . . . . . . . . . . . . . . . . . . .54
Section 5(a)(10): Audit recommendations more than 6 months old for which
  no management decision has been made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .55
Section 5(a)(11): Significant revised management decisions during the
  current reporting period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .55
Section 5(a)(12): Significant management decisions with which the OIG disagreed . . . . . . . . . . . . . . .55

48 SEMIANNUAL REPORT TO THE CONGRESS
                                                         Reader’s Guide to
                                                         Inspector General Act
                                                         Reporting Terms

What Happens When                                        expenditure of funds for the intended purpose is
                                                         unnecessary or unreasonable.
Auditors Identify
Monetary Benefits?                                       The next step in the process is for FDIC manage-
                                                         ment to make a decision about the questioned
Our experience has found that the reporting              costs. The Inspector General Act describes a
terminology outlined in the Inspector General            “management decision” as the final decision
Act of 1978, as amended, often confuses people.          issued by management after evaluation of the
To lessen such confusion and place these terms           finding(s) and recommendation(s) included in
in proper context, we present the following              an audit report, including actions deemed to be
discussion:                                              necessary. In the case of questioned costs, this
                                                         management decision must specifically address
The Inspector General Act defines the terminol-          the questioned costs by either disallowing or not
ogy and establishes the reporting requirements           disallowing these costs. A “disallowed cost,”
for the identification and disposition of ques-          according to the Inspector General Act, is a ques-
tioned costs in audit reports. To understand how         tioned cost that management, in a management
this process works, it is helpful to know the key        decision, has sustained or agreed should not be
terms and how they relate to each other.                 charged to the government.

The first step in the process is when the audit          Once management has disallowed a cost and, in
report identifying questioned costs* is issued to        effect, sustained the auditor’s questioned costs,
FDIC management. Auditors question costs                 the last step in the process takes place which cul-
because of an alleged violation of a provision of        minates in the “final action.” As defined in the
a law, regulation, contract, grant, cooperative          Inspector General Act, final action is the comple-
agreement, or other agreement or document                tion of all actions that management has deter-
governing the expenditure of funds. In addition,         mined, via the management decision process, are
a questioned cost may be a finding in which, at          necessary to resolve the findings and recommen-
the time of the audit, a cost is not supported by        dations included in an audit report. In the case of
adequate documentation; or, a finding that the           disallowed costs, management will typically eval-
                                                         uate factors beyond the conditions in the audit
                                                         report, such as qualitative judgments of value
* It is important to note that the OIG does not always   received or the cost to litigate, and decide
  expect 100 percent recovery of all costs questioned.   whether it is in the Corporation’s best interest to

                                                                            Management and Performance Challenges 49
       pursue recovery of the disallowed costs. The Cor-    for reports with questioned costs. The audit
       poration is responsible for reporting the disposi-   report recommends an action that will result in
       tion of the disallowed costs, the amounts            funds to be used more efficiently rather than
       recovered, and amounts not recovered.                identifying amounts that may need to be eventu-
                                                            ally recovered. Consequently, the management
       Except for a few key differences, the process for    decisions and final actions address the imple-
       reports with recommendations that funds be put       mentation of the recommended actions and not
       to better use is generally the same as the process   the disallowance or recovery of costs.




50 SEMIANNUAL REPORT TO THE CONGRESS
                                                      Statistical Information
                                                      Required by the
                                                      Inspector General Act
                                                      of 1978, as amended

Table I: Significant                                  (OERM) and (2) the OIG’s determination of
                                                      closed recommendations for reports issued after
Recommendations from                                  March 31, 2002. These 7 recommendations from
Previous Semiannual Reports                           7 reports involve improvements in operations
                                                      and programs. OERM has categorized the status
on Which Corrective Actions                           of these recommendations as follows:
Have Not Been Completed
This table shows the corrective actions manage-
ment has agreed to implement but has not com-
                                                      Management Action in Process:
pleted, along with associated monetary amounts.       (7 recommendations from
In some cases, these corrective actions are differ-   7 reports)
ent from the initial recommendations made in
the audit reports. However, the OIG has agreed        Management is in the process of implementing
that the planned actions meet the intent of the       the corrective action plan, which may include
initial recommendations. The information in this      modifications to policies, procedures, systems or
table is based on (1) information supplied by the     controls; issues involving monetary collection;
FDIC’s Office of Enterprise Risk Management           and settlement negotiations in process.




                                                                        Management and Performance Challenges 51
            Table I: Significant Recommendations from Previous Semiannual Reports on
                     Which Corrective Actions Have Not Been Completed
                                                         Significant
            Report Number,                               Recommendation         Brief Summary of Planned Corrective Actions
            Title & Date                                 Number                 and Associated Monetary Amounts

       Management Action In Process
        EVAL-01-002                                               3             Re-designate position sensitivity levels for examiner posi-
        FDIC’s Background Investigation                                         tions to reflect their public trust responsibilities.
        Process for Prospective and Cur-
        rent Employees
        August 17, 2001
             EVAL-04-005                                          2*            Develop a coherent human capital blueprint that
             FDIC’s Strategic Alignment of                                      describes the FDIC’s human capital framework and estab-
             Human Capital                                                      lishes a process for agency leaders to monitor the align-
             January 23, 2004                                                   ment and success of the initiatives relative to the goals.
             04-008                                               1*            Centralize Unix administration under one Division of Infor-
             Evaluation of FDIC’s Unix Systems                                  mation Resources Management organization. (Note: This
             Security                                                           Division is now the Division of Information Technology.)
             February 13, 2004
             04-009                                               4             Research and investigate solutions and tools for aggregat-
             Evaluation of FDIC’s Intrusion                                     ing event information from different security logging
             Detection and Incident Response                                    devices to better distinguish malicious activity from nor-
             Capability                                                         mal network traffic to reduce false positives.
             February 13, 2004
             04-016                                               3             Review all employees in moderate risk-level positions to
             FDIC’s Personnel Security Program                                  ensure that appropriate background investigations have
             March 30, 2004                                                     been performed.
             04-017                                               1†            Re-evaluate and update examination guidance to
             Supervisory Actions Taken for                                      strengthen monitoring and follow-up processes for BSA
             Bank Secrecy Act (BSA) Violations                                  violations.
             March 31, 2004
             04-028                                               1             Revise FDIC Circular 1310.3 to delineate the FDIC’s com-
             FDIC’s IT Security Risk Manage-                                    plete IT Security Risk Management Program. The revision
             ment Program—Overall Program                                       should be consistent with the National Institute of Stan-
             Policies and Procedures and the                                    dards and Technology Special Publication 800-26 method-
             Risk Assessment Process                                            ology.
             July 30, 2004
        *
            The OIG has not yet evaluated management’s actions in response to OIG recommendations.
        †
            The OIG has requested additional information to evaluate management’s actions in response to OIG recommendations.




52 SEMIANNUAL REPORT TO THE CONGRESS
  Table II: Audit Reports Issued by Subject Area
                             Audit Report                                      Questioned Costs
                                                                                                      Funds Put to
 Number and Date                                   Title                    Total      Unsupported     Better Use

Supervision and Insurance
 05-008                       FDIC’s Supervision of an Institution’s
 March 2, 2005                Compliance With the Bank Secrecy Act
 EVAL-05-012                  Division of Supervision and Consumer
 March 18, 2005               Protection’s Process for Identifying Cur-
                              rent and Future Skill and Competency
                              Requirements
 05-015                       DSC’s Process for Tracking and Eval-
 March 31, 2005               uating the Impact of MERIT Guidelines
Receivership and Legal
Services
 05-009                       DRR’s Internal Loan Servicing
 March 1, 2005
 05-013                       Receivership Dividend Payments
 March 22, 2005
 05-014                       FDIC’s Process for Writing Off Assets
 March 31, 2005
Systems Management
 EVAL-05-001                  FDIC’s Local Telecommunications Service                                    $390,000
 December 17, 2004
 05-004                       Follow-up Audit of the FDIC’s Virtual
 January 18, 2005             Supervisory Information on the Net Appli-
                              cation
 05-007                       Management Controls Over the Re-
 February 18, 2005            baselined New Financial Environment
                              Project
Information Assurance
  05-016                      Security Controls Over the FDIC’s Elec-
  March 31, 2005              tronic Mail (E-Mail) Infrastructure
Resources Management
 05-002                       Price Reduction on Laptop Computers         $1,967,863
 January 13, 2005
 EVAL-05-003                  FDIC’s Use of Consultants
 January 18, 2005
 05-005                       FDIC’s Procurement of Administrative                                     $8,800,000
 January 21, 2005             Goods and Services
Post-award Contract Audits
 05-006                       Post-award Contract Audit                     $80,000      $40,000          $60,000
 January 28, 2005
 05-010                       Post-award Contract Audit                    $154,543       $7,665         $301,430
 March 9, 2005
 05-017                       Post-award Contract Audit                    $119,610
 March 31, 2005
Pre-award Contract Audits
 05-011                       Pre-award Contract Audit
 March 14, 1005
Totals for the Period                                                     $2,322,016     $47,665       $9,551,430

                                                                                                     Statistical Information 53
         Table III: Audit Reports Issued with Questioned Costs
                                                                                                                  Questioned Costs
                                                                                     Number
                                                                                                             Total            Unsupported

       A. For which no management decision has been made by the                          1                  $110,915                 $0
          commencement of the reporting period.
       B. Which were issued during the reporting period.                                 4                $2,322,016              $47,665
       Subtotals of A & B                                                                5                $2,432,931              $47,665
       C. For which a management decision was made during the                            2                $2,078,778                 $0
          reporting period.
          (i) dollar value of disallowed costs.                                          1                $1,967,863                 $0
          (ii) dollar value of costs not disallowed.                                     1                 $110,915                  $0
       D. For which no management decision has been made by the                          3                  $354,153              $47,665
          end of the reporting period.
          Reports for which no management decision was made                              0                    $0                     $0
          within 6 months of issuance.




         Table IV: Audit Reports Issued with Recommendations for Better Use of Funds
                                                                                                           Number              Dollar Value

       A. For which no management decision has been made by the commencement of                               2                $51,084,587
          the reporting period.
       B. Which were issued during the reporting period.                                                      4                 $9,551,430

       Subtotals of A & B                                                                                     6                $60,636,017

       C. For which a management decision was made during the reporting period.                               4                $60,274,587
          (i) dollar value of recommendations that were agreed to by management.                              1                   $602,438
               • based on proposed management action.                                                         1                   $602,438
               • based on proposed legislative action.                                                        0                     0
          (ii) dollar value of recommendations that were not agreed to by management.                         4*               $59,672,149
       D. For which no management decision has been made by the end of the                                    2                   $361,430
          reporting period.
          Reports for which no management decision was made within 6 months                                   0                      0
          of issuance.

       * One of the reports included on the line for recommendations not agreed to by management is also included on the line for recommendations
         agreed to by management because management did not agree with some of the funds put to better use.




54 SEMIANNUAL REPORT TO THE CONGRESS
 Table V: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations more than 6 months old without management decisions.




 Table VI: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.




 Table VII: Significant Management Decisions with Which the OIG Disagreed
In our report entitled FDIC’s Allocation of Records Storage Costs (Report No. 04-044, issued on September 29, 2004), we rec-
ommended that the Director of the Division of Finance (DOF) adjust prior Bank Insurance Fund (BIF), Savings Association
Insurance Fund (SAIF), and Federal Savings and Loan Insurance Corporation Resolution Fund (FRF) balances to address the
disproportionate distribution of costs to the BIF and SAIF for records storage properly chargeable to the FRF. DOF did not
agree with the OIG that there were allocation errors for prior periods that required correction. We also recommended that
the Director of DOF determine whether prior-year adjustments should be made to the funds’ financial statements due to the
magnitude of the reallocation of records storage costs to the FRF. DOF also did not agree with this recommendation and
stated that it had assessed the materiality of the cost that the OIG recommended be charged to the FRF and had determined
that the amount was below the materiality threshold for the FRF. The OIG’s position was that while financial statements for
prior years may not need to be restated, the FDIC still needed to make the appropriate adjustments to the BIF, SAIF, and FRF
balances to properly account for the costs.

The Vice Chairman, acting as Chair of the FDIC Audit Committee, advised us on January 7, 2005, of the management decision
to accept the DOF position on the recommendations. The Vice Chairman noted that DOF committed to periodic reviews of the
methodology employed to allocate records storage costs in the future as the final action with regard to the audit recommen-
dations. DOF was required to make appropriate changes in future allocations based on its review of the allocation methodol-
ogy and report those changes to the Audit Committee.

We consider this management decision to be significant because we estimated that over $34 million in records storage costs
was not properly allocated to the respective funds. We disagreed with the decision as it did not, in our opinion, achieve an
accurate accounting for the costs.




  Table VIII: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




                                                                                                              Statistical Information 55
                                                        Farewell to OIG Retirees

                     Charles Becker                         (prior to its becoming the Office of Inspector
                       Charles Becker, Senior Special       General), she played a key role in conducting on-
                       Agent, retired after a 30-year       site reviews of the FDIC Consolidated Offices. As
                       federal career. As a Senior          an Audit Specialist in the Office of Audits, she
                       Special Agent, he participated       participated in audits of corporate programs in
                       in a number of the office’s          the FDIC Division of Supervision and Consumer
                       most difficult financial fraud       Protection.
                       investigations. Over the last
                       few years, he helped develop         Ann Gray
an electronic database for compiling numerous               Ann Gray, Audit Specialist,
contacts to the FDIC OIG Hotline. His work in               retired after 29 years of fed-
researching and developing this system has bene-            eral service. Her government
fited the public; FDIC divisions and offices; and           career included service at
other state, local, and federal agencies. Prior to          the General Services Admin-
joining the FDIC, Charlie served as an auditor and          istration, National Archives,
accountant with the Department of Housing and               Resolution Trust Corpora-
Urban Development, the Department of the Trea-              tion, and the FDIC. Serving as a Management
sury, the Department of Commerce, and as a sys-             Analyst and Audit Specialist, she was a part of
tems accountant for the Department of Health and            teams conducting reviews of the FDIC’s contract
Human Services.                                             operations, contractor billings, records manage-
                                                            ment, and records storage costs. Her efforts aided
                     Nora Davis                             in identifying monetary benefits and recommen-
                      Nora Davis, Audit Specialist,         dations that improved the efficiency and effec-
                      retired after 29 years of fed-        tiveness of FDIC operations.
                      eral service. Her government
                      career included service at the        Charles Thompson
                      Department of Veterans                Charles Thompson, Audit
                      Affairs and the FDIC. Serv-           Specialist, retired after 21
                      ing as a Secretary in the             years of federal service. His
                      FDIC Division of Research,            government career also
she played a key role in an administrative capac-           included service at the Inter-
ity. Later, as an Auditor in the FDIC Office of             nal Revenue Service and the
Corporate Audits and Internal Investigations                Department of Education.

56 SEMIANNUAL REPORT TO THE CONGRESS
For a number of years, Charles was a valuable        Former IG Gianni received the following praise
member of the joint FDIC/GAO team conduct-           in letters from Members of the Congress:
ing the Corporation’s financial statement audit.
His efforts in assessing internal controls over      “It has always been my firm belief that public
cash receipts and disbursements and reviewing        service is one of the most honorable callings, one
contractor oversight and income and expense          that demands the very best, most dedicated efforts
items contributed greatly to the success of that     of those fortunate enough to serve their fellow citi-
important undertaking. As an Audit Specialist,       zens. Your colleagues attest and pay tribute to your
he later played a key role in conducting reviews     high standards and important accomplishments,
of the FDIC’s contract operations, contractor        and our country is a better place because of your
billings, and receivership operations.               commitment.”
                                                                                   Senator Paul Sarbanes
Gaston L. Gianni, Jr.
                                                     “Besides your devotion to the Inspector General
                                                     mission, I know the community will also miss
                                                     your good humor, ‘can do’ attitude, and gentle
                                                     demeanor. The Federal government was truly for-
                                                     tunate to have had the energy and insights of such
                                                     a dedicated public servant.”
                                                                            Former Senator John Glenn

                                                     “Congress envisioned IGs as permanent, independ-
                                                     ent, non-partisan, and objective and your efforts
Former IG and Mrs. Gianni with Vice Chairman Reich   exemplify this vision. Your work, and the work of
(right)
                                                     all inspectors general across government, adds an
                                                     important balance to our system of separation of
The OIG celebrated Gaston Gianni’s retirement        powers. The efforts of inspectors general can be tied
both with his FDIC colleagues and with his fam-      to billions of dollars in savings, thousands of suc-
ily, friends, and former colleagues from through-    cessful criminal prosecutions, and agencies and IGs
out the federal government. Vice Chairman John       working together to make government more effec-
Reich acknowledged Mr. Gianni’s work and lead-       tive and more accountable.”
ership at the FDIC. The Comptroller General
also attended one of Mr. Gianni’s receptions and             Tom Davis, Chairman, House Committee
acknowledged his many contributions to our                                on Government Reform; and
country—both while at the GAO and at the                        Todd Platts, Chairman, Subcommittee
FDIC. Mr. Gianni was also presented with an                   on Efficiency and Financial Management
American flag that was flown over the Capitol on
the last day of his 401/2 year federal career. The
inscription on the flag case epitomizes our
former IG:

   “true public servant; champion of honor and
        integrity; tireless, unselfish leader”




                                                                                          Farewell to OIG Retirees 57
                                            Abbreviations
                                            and Acronyms

AIGA      Assistant Inspector General for   FBI      Federal Bureau of Investigation
          Audits
                                            FDIC     Federal Deposit Insurance
ASTEP     Asset Servicing Technology                 Corporation
          Enhancement Project
                                            FinCEN   Financial Crimes Enforcement
BCP       Business Continuity Plan                   Network
BIF       Bank Insurance Fund
                                            FISMA    Federal Information Security
BSA       Bank Secrecy Act                           Management Act of 2002
CBC       Connecticut Bank of Commerce      FOIA     Freedom of Information Act
CEO       Chief Executive Officer           FRF      Federal Savings and Loan
CFO       Chief Financial Officer                    Insurance Corporation
                                                     Resolution Fund
CIRC      Capital Investment Review
          Committee                         GAO      Government Accountability Office
COO       Chief Operations Officer          GPRA     Government Performance and
CPA OIG   Coalition Provisional Authority            Results Act
          Office of Inspector General
                                            HCSB     Hartford-Carlisle Savings Bank
CRA       Community Reinvestment Act
                                            HSPD     Homeland Security Presidential
DOA       Division of Administration                 Directive
DIT       Division of Information           IBM      International Business Machines
          Technology
                                            IG       Inspector General
DRR       Division of Resolutions and
          Receiverships                     ILC      industrial loan company
DSC       Division of Supervision and       IT       Information Technology
          Consumer Protection
                                            MERIT    Maximum Efficiency, Risk-
ERM       enterprise risk management                 Focused, Institution Targeted
FBA       Federal Banking Agencies                   Examinations Program

58 SEMIANNUAL REPORT TO THE CONGRESS
NFE    New Financial Environment              PMA           President’s Management
                                                            Agenda
NMSC   North Mississippi Supply Company
                                              SAIF          Savings Association Insurance
OA     Office of Audits
                                                            Fund
OCC    Office of the Comptroller of the
                                              SCS           San Clemente Securities, Inc.
       Currency
                                              SDLC          System Development Life Cycle
OPM    Office of Personnel Management
                                              SFG           Stevens Financial Group
OERM   Office of Enterprise Risk
       Management                             SNB           Sinclair National Bank
OI     Office of Investigations               T&C Bank      Town & Country Bank
OIG    Office of Inspector General            USA           Uniting and Strengthening
                                              PATRIOT Act   America by Providing
OMB    Office of Management and
                                                            Appropriate Tools Required
       Budget
                                                            to Intercept and Obstruct
OTS    Office of Thrift Supervision                         Terrorism Act of 2001
PCIE   President’s Council on Integrity and   ViSION        Virtual Supervisory Informa-
       Efficiency                                           tion on the Net




                                                                        Abbreviations and Acronyms 59
The Office of Inspector General (OIG) Hotline is a convenient mechanism
employees, contractors, and others can use to report instances of suspected fraud,
waste, abuse, and mismanagement within the FDIC and its contractor operations.
The OIG maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic
mail address (IGhotline@FDIC.gov), and postal mailing address. The Hotline is
designed to make it easy for employees and contractors to join with the OIG in its
efforts to prevent fraud, waste, abuse, and mismanagement that could threaten the
success of FDIC programs or operations.




To learn more about the FDIC OIG and for more information on audit
and evaluation reports discussed in this Semiannual Report, visit our
homepage: http://www.fdicig.gov




Federal Deposit Insurance Corporation
Office of Inspector General
801 17th St., NW Washington, D.C. 20434
